1

TABLE OF CONTENTS
Page
Appendix A: Court of appeals opinion, Dec. 7,
2020....................................................................

la

Appendix B: District court order, Jan. 5,2018......

13a

Appendix C: Court of appeals order denying
petition for rehearing or rehearing en banc,
Jan. 26, 2021......................................................

81a

Appendix D: Statutory provisions involved........

83a

la
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT
HAVE PRECEDENTIAL EFFECT. CITATION
TO A SUMMARY ORDER FILED ON OR AFTER
JANUARY 1,2007, IS PERMITTED AND IS GOV­
ERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY OR­
DER IN A DOCUMENT FILED WITH THIS
COURT, A PARTY MUST CITE EITHER THE
FEDERAL APPENDIX OR AN ELECTRONIC
DATABASE (WITH THE NOTATION “SUMMARY
ORDER”). A PARTY CITING A SUMMARY OR­
DER MUST SERVE A COPY OF IT ON ANY
PARTY NOT REPRESENTED BY COUNSEL.
At a stated Term of the United States Court of Ap­
peals for the Second Circuit, held at the Thurgood Mar­
shall United States Courthouse, 40 Foley Square, in
the City of New York on the 7th day of December, two
thousand twenty.
Present:

RALPH K. WINTER,
ROSEMARY S. POOLER;
Circuit Judges.1

1 Judge Robert Sweet, United States District Court for the
Southern District of New York, was a member or the panel, sit­
ting by designation. Judge Sweet died, and the appeal is being

2a

JOHN DOE 1, ON BEHALF OF
THEMSELVES AND ALL OTHERS
SIMILARLY SITUATED, JOHN DOE
2, ON BEHALF OF THEMSELVES
AND ALL OTHERS SIMILARLY
SITUATED, BRIAN CORRIGAN,
STAMFORD HEALTH, INC.,
BROTHERS TRADING CO., INC.,
Plaintiffs-Appellants,
KAREN BURNETT, INDIVIDUALLY
AND ON BEHALF OF ALL OTHERS
SIMILARLY SITUATED, BRENDAN
FARRELL, INDIVIDUALLY AND
ON BEHALF OF ALL OTHERS
SIMILARLY SITUATED, ROBERT
SHULLICH, INDIVIDUALLY AND
ON BEHALF OF ALL OTHERS
SIMILARLY SITUATED,
Consolidated PlaintiffsAppellants,
v.

18-346

EXPRESS SCRIPTS, INC.,
ANTHEM, INC.,
Defendants-Appellees.2

decided by the remaining two members of the panel, who are in
agreement. See 2d Cir. IOP E(b).
2 The Clerk of the Court is directed to amend the caption as
above.

3a
Appearing for
Appellant:

Jeffrey Lewis, Keller Rohrback
L.L.P. (Derek W. Loeser,
Gretchen S. Obrist, David J. Ko,
on the brief), Oakland, CA.
Joe R. Whatley, Jr., Whatley
Kallas, LLP, New York, NY
(on the brief).

Appearing for
Glenn M. Kurtz, White & Case
Appellee Anthem, LLP, New York, NY.
Inc.:
Appearing for
Derek L. Shaffer, Quinn Emanuel
Appellee Express Urquhart & Sullivan, LLP
Scripts, Inc.:
(Jonathan G. Cooper, Andrew
S. Corkhill, Michael J. Lyle,
Jacob J. Waldman, on the brief),
New York, NY.
Paul J. Ondrasik, Jr., Eric G.
Serron, Osvaldo Vazquez, Steptoe
& Johnson LLP, Washington, DC
(on the brief).
I

Appearing for
Amici Curiae
in support of
Appellants'.

Karen L. Handorf, Cohen Milstein
Sellers & Toll, PLLC, Washing­
ton, DC, for amici curiae AARP
and National Employment Law­
yers Association.
Mary Ellen Signorille, AARP
Foundation, Washington, DC,
on the brief, for AARP.
Matthew C. Koski, National
Employment Lawyers Association,
Washington, DC, on the brief, for

4a
National Employment Lawyers
Association.
Appearing for
Amici Curiae
in support of
Appellees:

M. Miller Baker, McDermott Will
& Emery LLP (Sarah P. Hogarth,
Eric Hageman, on the brief),
Washington, DC, for amici curiae
Pharmaceutical Care Manage­
ment Association, America’s
Health Insurance Plans, and the
Chamber of Commerce of the
United States ofAmerica.
Steven P. Lehotsky, U.S. Chamber
Litigation Center, Washington, DC,
on the brief, for the Chamber of
Commerce of the United States of
America.

Appeal from the United States District Court for
the Southern District of New York (Ramos, J.).
ON CONSIDERATION WHEREOF, IT IS
HEREBY ORDERED, ADJUDGED, AND DE­
CREED that the judgment of said District Court be
and it hereby is AFFIRMED.
Plaintiffs appeal from the January 5,2018 opinion
and order of the United States District Court for the
Southern District of New York (Ramos, J.) dismissing
their putative consolidated class action against An­
them, Inc. and Express Scripts, Inc. alleging the two
violated their fiduciary obligations under the Em­
ployee Retirement Income Security Act (“ERISA”) in
setting prescription drug prices. We assume the

5a
parties’ familiarity with the underlying facts, proce­
dural history, and specification of issues for review.
Anthem is a health benefits company. Anthem of­
fers its health care plans both through employers and
directly to individual subscribers. Anthem also offers
“Administrative Services Only” plans to self-funded
employer plans: the plans pay Anthem to administer
the plan and negotiate for lower rates with health care
providers. Express Scripts is a pharmacy benefits man­
ager (“PBM”). Anthem uses PBMs to manage the pre­
scription medication programs it offers for health
plans. PBMs negotiate with drug manufacturers, man­
age formularies, contract with pharmacies, and process
and pay prescription drug claims. Express Scripts is
the largest PBM in the United States, with nearly 97
percent of the pharmacies belonging to its network.
The plaintiffs are certain health care plans regulated
by ERISA that are either administered or insured by
Anthem, as well as people individually enrolled in An­
them health plans who receive prescription benefits
through Express Scripts.
,
Anthem and Express Scripts entered into a 10year PBM Agreement on December 1, 2009. The PBM
Agreement provides that Express Scripts will process
the claims of Anthem participants, both through
brick-and-mortar pharmacies and directly through
mail-order pharmacies. In addition, Express Scripts
provides administrative services relating to prescrip­
tion drugs for Anthem’s health plans and participants.
Plaintiffs allege that at the same time the parties were
negotiating the PBM Agreement, Express Scripts and

6a
Anthem were also negotiating Express Script’s pur­
chase of three PBM companies owned by Anthem:
NextRx, LLC, NextRX, Inc. and Next Rx Services (col­
lectively, the ‘NextRx Companies”) to Express Scripts
(the “NextRx Agreement”).
The signing of the PBM Agreement was a condi­
tion precedent to the sale of the NextRx Companies,
and the purchase price was linked to the price Anthem
would pay for prescription drugs during the term of the
PBM Agreement. During negotiations, Express Scripts
offered to pay $500 million for the NextRx Companies
in exchange for providing prescription medication at
a lower prices. Alternatively, Express offered to pay
$4,675 billion for the NextRx Companies, but would
then charge higher prices for prescription medications
during the PBM Agreement.
Anthem chose the latter option. Plaintiffs allege
that in so choosing, Anthem agreed to allow Express
Scripts to charge far more for prescription drugs than
the industry standard. Anthem did so by agreeing to
allow Express Scripts wide, and relatively unfettered,
discretion in setting drug prices. Thus, plaintiffs allege,
even though Anthem wielded significant bargaining
power, Express Scripts charges Anthem plans a higher
rate for drugs than those charged by PBMs to other
plans—and those inflated costs are passed on to the
plan subscribers.
Plaintiffs sued, alleging claims under ERISA, the
Racketeer Influenced and Corrupt Organizations Act,
and the Affordable Care Act, as well as a variety of

7a
state law torts. Express Scripts and Anthem both
moved to dismiss for failure to state a claim upon
which relief could be granted. The district court
granted the motions. In re Express Scripts!Anthem
ERISA Litig., 285 F. Supp. 3d 655 (S.D.N.Y. 2018). This
appeal followed.
Plaintiffs first argue that the district court erred
in dismissing their claims under ERISA §§ 409 and
502. Section 409 makes any fiduciary who breaches the
provisions of ERISA personally liable to the plan for
restoring any profits the fiduciary reaped through use
of plan assets, and to “make good” any losses the plan
suffered as a result of the breach. 29 U.S.C. § 1109(a).
Section 502 permits plan participants, beneficiaries,
and fiduciaries to bring actions under ERISA for equi­
table relief. 29 U.S.C. § 1132(a)(3). Specifically, the com­
plaint alleges that defendants breached Section 404
(ERISA fiduciaries must discharge their duties “solely
in the interest of the participants and beneficiaries” of
the plan); Section 405 (co-fiduciary liability); and Sec­
tion 406 (barring an ERISA fiduciary from engaging in
certain transactions). 29 U.S.C. §§ 1104, 1105, 1106.
The first issue is whether defendants were “acting as a
fiduciary . . . when taking the action subject to com­
plaint.” Pegram v. Herdrich, 530 U.S. 211, 226 (2000).
“Fiduciary” is defined in the statute as:
[A] person is a fiduciary with respect to a plan
to the extent (i) he exercises any discretionary
authority or discretionary control respecting
management of such plan or exercises any au­
thority or control respecting management or

8a
disposition of its assets, (ii) he renders invest­
ment advice for a fee or other compensation,
direct or indirect, with respect to any moneys
or other property of such plan, or has any au­
thority or responsibility to do so, or (iii) he has
any discretionary authority or discretionary
responsibility in the administration of such
plan.
29 U.S.C. § 1002(21)(A). The Second Circuit employs a
functional approach to determine which individuals
and entities are ERISA fiduciaries “by focusing on the
function performed, rather than on the title held.”
Blatt v. Marshall & Lassman, 812 F.2d 810,812 (2d Cir.
1987). “[A] person may be an ERISA fiduciary with re­
spect to certain matters but not others; fiduciary status
exists only to the extent that the person has or exer­
cises the described authority or responsibility over a
plan.” Coulter v. Morgan Stanley & Co., 753 F.3d 361,
366 (2d Cir. 2014) (internal quotation marks omitted).
Plaintiffs allege Anthem was acting as a fiduciary
when it negotiated the agreement to sell the NextRx
Companies to Express Scripts for a higher price know­
ing it would result in Express Scripts charging a
higher price for prescription drugs. In entering into the
PBM Agreement, plaintiffs argue, Anthem exercised
its discretion to manage plaintiffs’ prescription bene­
fit—discretion that flowed from Anthem’s role as an
ERISA fiduciary. The Supreme Court explained in Pegram that the fiduciary responsibilities imposed by
ERISA find their origins in the common law of trusts.
530 U.S. at 224. “Beyond the threshold statement of

9a
responsibility, however, the analogy between ERISA fi­
duciary and common law trustee becomes problematic
. . . because the trustee at common law characteristi­
cally wears only his fiduciary hat when he takes action
to affect a beneficiary, whereas the trustee under
ERISA may wear different hats.” Id. at 225. Thus,
while a traditional fiduciary “is not permitted to place
himself in a position where it would be for his own ben­
efit to violate his duty to the beneficiaries . . . [u]nder
ERISA ... a fiduciary may have financial interests ad­
verse to beneficiaries.” Id. (internal quotation marks
omitted). “Employers, for example, can be ERISA fidu­
ciaries and still take actions to the disadvantage of
employee beneficiaries when they act as employers
(e.g., firing a beneficiary for reasons unrelated to the
ERISA plan), or even as plan sponsors (e.g., modifying
the terms of a plan as allowed by ERISA to provide less
generous benefits).” Id. (italics omitted). This is the socalled “two hat[]” doctrine. Id. The Pegram Court noted
that “the trustee under ERISA may wear different
hats,” for example, “[elmployers, for example, can be
ERISA fiduciaries and still take actions to the disad­
vantage of employee beneficiaries, when they act as
employers (e.g., firing a beneficiary for reasons unre­
lated to the ERISA plan), or even as plan sponsors (e.g.,
modifying the terms of a plan as allowed by ERISA to
provide less generous benefits).” 530 U.S. at 225. “Nor
is there any apparent reason in the ERISA provisions
to conclude . . . that this tension is permissible only for
the employer or plan sponsor, to the exclusion of per­
sons who provide services to an ERISA plan.” Id.
“‘[Gjeneral fiduciary duties under ERISA [are] not

10a
triggered’.. . when the decision at issue is, ‘at its core,
a corporate business decision, and not one of a plan ad­
ministrator.’” Am. Psychiatric Assoc, v. Anthem Health
Plans, Inc., 821 F.3d 352, 357 n.2 (2d Cir. 2016) (alter­
ations in original) (quoting Flanigan v. Gen. Elec. Co.,
242 F.3d 78, 88 (2d Cir. 2001)).
Here, the district court found Anthem was not act­
ing in a fiduciary capacity when it entered into the
PBM Agreement. We agree. This Court previously
found that the decision to sell a corporate asset is not
a fiduciary decision—even if the sale affects an ERISA
plan. See Flanigan, 242 F.3d at 88 (“Because GE’s de­
cision to spin-off the division along with its pension
plan was, at its core, a corporate business decision, and
not one of a plan administrator, GE was acting as a
settlor, not a fiduciary, when it transferred the surplus
to Lockheed. Therefore, GE’s general fiduciary duties
under ERISA were not triggered”). Anthem did not act
as an ERISA fiduciary when it entered into the NextRx
and PBM Agreements, even though its decisions may
ultimately affect how much plan participants pay for
drug prices. See, e.g.,DeLuca v. Blue Cross Blue Shield
of Mich., 628 F.3d 743, 747 (6th Cir. 2010) (insurer did
“not act[] as a fiduciary when it negotiated the chal­
lenged rate changes, principally because those busi­
ness dealings were not directly associated with the
benefits plan at issue but were generally applicable to
a broad range of health-care consumers.”).
Similarly, we find no error with the district court’s
finding that Express Scripts was not a fiduciary. The
district court concluded that Express Scripts was not a

11a
fiduciary because (1) a PBM does not exercise discre­
tion in setting prices when prices are set according to
contractual terms; and (2) Express Script did not con­
trol its own compensation. In re Express Scripts, 285
F. Supp. 3d at 678-81. Plaintiffs argue that the PMB
Agreement gives Express Scripts discretionary author­
ity to set prescription drug prices, and that discretion
allowed Express Scripts to act as an ERISA fiduciary.
Plaintiffs point out that Express Scripts had the dis­
cretion to (1) decide whether to classify medications as
“brand” or “generic,” which directly affected how much
plan participants pay; (2) determine whether drugs
were to be included in the “maximum allowable cost”
list, which also directly affected how much plan partic­
ipants had to pay; and (3) negotiate rebates with drug
manufacturers, which the PBM Agreement allows Ex­
press Scripts to keep for itself. Appellants’ Br. at 42-44.
We agree with the district court that when a PBM
sets prices for prescription drugs pursuant to the
terms of a contract, it is not exercising discretionary
authority and therefore not acting as an ERISA fiduci­
ary. See Pegram, 530 U.S. at 226 (insurer does not act
in a fiduciary capacity under ERISA when it “mak[es]
decisions . .. influenced by the terms” of the agreement
between the insurer and employer, even when insurer
“ultimately profit [s] from [its] own choices to minimize
the medical services provided.”). Even fully crediting
plaintiffs’ allegations that the PBM Agreement pro­
vided Express Scripts with extraordinarily broad dis­
cretion in setting prescription drug prices, at bottom

12a
the ability to set such prices is a contractual term, not
an ability to exercise authority over plan assets.
We have considered the remainder of Appellants’
arguments and find them to be without merit. Accord­
ingly, the judgment of the district court hereby is AF­
FIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

1

13a
APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
OPINION
AND ORDER

IN RE EXPRESS SCRIPTS/
ANTHEM ERISA LITIGATION (Filed Jan. 5, 2018)
16 Civ. 3399 (ER)
Ramos. D.J.:
This litigation arises out of the relationship be­
tween Anthem, Inc. (“Anthem”), one of the nation’s
largest health benefits companies, and Express
Scripts, Inc. (“ESI”), a pharmacy benefits manager
(“PBM”), and the impact of their transactions on Plain­
tiffs, a proposed class of certain Anthem health plans
and individual subscribers to Anthem health plans
who receive prescription drug benefits through ESI.
Plaintiffs assert seventeen causes of action against
Anthem and ESI (“Defendants”), including causes of
action under the Employee Retirement Income Secu­
rity Act of 1974 (“ERISA”), 29 U.S.C. § 1001 et seq.,
the Racketeering Influenced and Corrupt Organiza­
tions Act (“RICO”), 18 U.S.C. § 1961 et seq., and the
Patient Protection and Affordable Care Act (“ACA”)
anti-discrimination provision, 42 U.S.C. § 18116.
On April 24, 2017, both Anthem and ESI moved
to dismiss the Plaintiffs’ Second Amended Complaint
(“SAC”) (Doc. 78). Docs. 93, 96. For the reasons stated
below, both motions are GRANTED.

14a
I.

BACKGROUND1
A. Anthem and ESI’s 2009 PBM Agree­
ment

Anthem is health benefits company that provides
health care insurance and insurance administration
programs. SAC f 3. Anthem offers health care plans
sponsored through an employer (Employee Welfare
Benefit Plans regulated under ERISA) or offered di­
rectly from Anthem through, for example, the ACA
insurance exchanges. Id. Anthem also provides “Ad­
ministrative Services Only” (“ASO”) plans to selffunded employers. Id. In an ASO plan, the health plan
reimburses the health care costs of the plan beneficiar­
ies, but pays Anthem a premium to administer the
plan (and to negotiate on its behalf for lower rates with
health care providers). Id. 1 9. ASO plans account for
sixty percent of Anthem’s business. Id. 'll 10.
To keep costs of prescription medications manage­
able, insurers like Anthem frequently use in-house or
third-party PBMs to administer prescription medica­
tion programs for health plans. Id. <M 108,121 (“A crit­
ical key to success for health insurers is to provide
effective and affordable pharmacy/drug related ser­
vices and administration for its members. . . .”) (quot­
ing Complaint (Doc. 1), at f 11, Anthem v. Express
Scripts, Inc., No. 16 Civ. 2048 (S.D.N.Y. 2016)). PBMs
1 The following facts are based on the allegations in the SAC,
which the Court accepts as true for purposes of the instant mo­
tion. See Koch v. Christie’s Int’l PLC, 699 F.3d 141, 145 (2d Cir.
2012).

15a
generally contract with pharmacies, negotiate dis­
counts and rebates with drug manufacturers, review
drug utilization, manage drug formularies, and process
and pay prescription drug claims. Id.
ESI is the largest PBM operating in the United
States. Id. ‘H 109. Over 97% of the pharmacies in the
country are in an ESI network. Id. ESI processes
nearly 1.4 billion prescriptions each year. Id. ESI pro­
vides traditional PBM services and also operates mail­
order delivery services for prescription drugs. Id.
108.
On December 1, 2009, Anthem and ESI entered
into a ten year agreement (the “PBM Agreement”). Id.
^1 103. Under the PBM Agreement, ESI either pro­
cesses claims of Anthem participants who fill prescrip­
tions at retail pharmacies or fills the prescriptions of
Anthem participants directly through its mail-order
pharmacies. Id. 112. ESI also provides administra­
tive services relating to prescription drugs for Anthem,
Anthem’s health plans, and Anthem participants. Id.
122.
On the same day, Anthem and ESI entered into an
agreement by which Anthem sold three PBM compa­
nies, NextRx, LLC, NextRx, Inc., and NextRx Services
(collectively, the “NextRx companies”) to ESI (the “Nex­
tRx Agreement”). Id. 125.2 The execution of the PBM
Agreement was a condition precedent to the signing of
2 See also Declaration of Glenn M. Kurtz (Doc. 41) (Ex. 2),
Anthem, Inc. v. Express Scripts, Inc., 16 Civ. 2048 (S.D.N.Y.
2016).

16a
the NextRx Agreement. Id. 1 126. According to ESI, the
purchase price for the NextRx entities was directly tied
to the price Anthem would pay for prescription drugs
over the course of the PBM Agreement. Id. 'll 127. Spe­
cifically, ESI offered to pay $500 million to Anthem for
the NextRx companies in exchange for providing pre­
scription medications to Anthem subscribers at a lower
price throughout the ten year PBM Agreement. Id.
Conversely, ESI offered to pay a much greater amount
for the NextRx companies—$4,675 billion—but alleg­
edly made clear that prescription medication pricing
would be higher over the life of the Agreement. Id.
<11 128.3 Ultimately, Anthem opted for the greater up­
front payment of $4,675 billion. Id.
B, Key Terms of the 2009 PBM Agree­
ment
Plaintiffs allege that the PBM Agreement allows
ESI to exclusively set prescription drug pricing, subject
to certain terms and limitations. Id. 1 133. According
to Plaintiffs, the PBM Agreement gives ESI discretion
over pricing through several different mechanisms:
First, ESI negotiates for rebates and discounts
from drug manufacturers. Id. ‘H 116. According to the
PBM Agreement, ESI may “contract!] for its own ac­
count with manufacturers to obtain formulary rebates
3 Anthem strongly disputes this version of events. See
Memorandum of Law in Support of Anthem’s Motion to Dis­
miss (“Anthem Mem.”) (Doc. 94), at 8-9 (describing the NextRx
transaction).

17a
attributable to the utilization of certain brand medica­
tions and supplies by PBM client members.”4 Id.; Dec­
laration of Joe R. Whatley, Jr. in Opposition to Motions
to Dismiss (Doc. 110), Ex. C (“PBM Agreement”) at Ex.
N.
Second, ESI controls the classification of prescrip­
tion drugs as “brand” or “generic.” Id. I 117. Under the
PBM Agreement, the name of a drug (e.g., whether it
is marketed under a “brand” name or simply the chem­
ical or “generic” name) “does not necessarily mean that
the product is recognized as a generic for adjudication,
pricing, or copay purposes.” PBM Agreement Ex. N. In­
stead, “ESI distinguishes brands and generics through
a proprietary algorithm (“BGA”) that. . . uses [a vari­
ety of] data elements in a hierarchical process to cate­
gorize the products as brand or generic.” Id. Plaintiffs
allege that this impacts pricing because brand medica­
tions are generally more expensive than generic ones.
SAC f 117.
Third, ESI determines the maximum allowable
cost (the “MAC”) for each of the prescription medica­
tions it provides to Anthem participants. Id. *][ 118. ESI
“maintains a MAC List of drug products identified as
requiring pricing management. . . .ESI also maintains
correlative MAC price lists based on current price ref­
erence data provided by FDB [First DataBank] or any
4 According to Plaintiffs, this gives ESI the discretion to de­
termine “whether to pass rebates through to [Plaintiffs] or keep
them for its own pecuniary benefit.” Id. In other words, the PBM
Agreement creates no obligation for ESI to share in whatever re­
bates it receives.

•»

18a
other nationally recognized pricing source, market
pricing and availability information from generic man­
ufacturers and online research of national wholesale
drug company files.” Id. ; PBM Agreement Ex. N.
Fourth, Plaintiffs claim that ESI establishes the
exclusionary formulary list, which excludes certain
drugs from ESI’s formulary. Id. 119.5
Fifth, and crucially, Plaintiffs claim that ESI’s in­
terpretation of Section 5.6 of the PBM Agreement, if
correct, would give ESI additional control over pricing.
Id. Section 5.6, titled “Periodic Pricing Review,” pro­
vides that:
\

[Anthem] or a third party consultant retained
by [Anthem] will conduct a market analysis
every
during the Term of this Agreement to ensure that [Anthem] is receiving
5 A formulary is a list of approved prescription drugs. Some
PBMs develop their own formularies and make them available to
plan sponsors; PBMs might also adopt an insurer’s formulary. See
Moeckel v. Caremark, Inc., 622 F. Supp.2d 663, 686 (M.D. Tenn.
2007) (“Caremark develops its formularies and preferred drug
lists for its own account and makes them available to prospective
plan sponsor clients for adoption if they so choose. . . . Caremark’s
clients such as Morrell & Co. are not required to adopt Caremark’s standard formulary.”). Plaintiffs do not explain why they
believe that ESI “has discretion to exclude certain drugs offered
to Plaintiffs and the Class” or that ESI “recently excluded 66
drugs from its national formulary.” SAC H 119. According to the
PBM Agreement, Anthem was “the sole owner of the Formularies
which are administered on its behalf” by ESI, and were consid­
ered Anthem’s work product. PBM Agreement 1 2.5(b). ESI did,
however, provide consulting to support formulary administration.
Id. 1 3.10.

19a
competitive benchmark pricing. In the event
[Anthem] or its third party consultant deter­
mines that such pricing terms are not compet­
itive, [Anthem] shall have the ability to
propose renegotiated pricing terms to PBM
and [Anthem] and PBM agrees to negotiate in
good faith over the proposed new pricing
terms. Notwithstanding the foregoing, to be
effective any new pricing terms must be
agreed to by PBM in writing.
PBM Agreement f 5.6. Plaintiffs allege that the term
“competitive benchmark pricing” is “atypical” and “not
a standard term within the PBM industry.” SAC
18,
142. Plaintiffs point to ESI’s 2015 Annual Report, in
which it states that it typically calculates prescription
medication pricing based on the “average wholesale
price” (“AWP”), id. ^[ 139, and ESI’s PBM arrangement
with the United States Department of Defense, which
incorporates AWP as a pricing benchmark, id. ^ 140.
Section 5.6, in contrast, does not reference AWP or al­
ternate pricing benchmarks, like MAC or Wholesale
Acquisition Cost (“WAC”). Id. 1 142.
Plaintiffs have alleged that ESI used the power it
had under these provisions of the PBM Agreement, es­
pecially the lack of reference to a well-known pricing
benchmark in Section 5.6, to charge Plaintiffs exces­
sive prices for prescription medications. Id. It 133.

20a
C. Negotiations After 2009
In 2012, Anthem and ESI engaged in negotiations
over pricing and signed an amended PBM Agreement.
Id. M 12 n.3,144.6
In preparation for the next pricing review, in late
2014 Anthem engaged third-party Health Strategy,
LLC to conduct a market analysis to ensure that the
pricing under the PBM Agreement remained competi­
tive. SAC f 145. In March 2015, Health Strategy re­
ported to Anthem its conclusion that prescription drug
pricing exceeded “competitive benchmark pricing” by
more than $3 billion annually.7 Id. *1 146. Anthem esti­
mated that pricing under the PBM Agreement would
therefore cost $13 billion more than “competitive
benchmark pricing” over the remaining life of the
Agreement, and would cost $1.8 billion more during
the post-termination wind down period provided for in
the Agreement. Id. 147.
Thereafter, on March 18, 2015, Anthem informed
ESI that it had determined that current prescription
6 Plaintiffs do not allege that any of the PBM provisions at
issue here changed substantively when the PBM Agreement was
amended. See Anthem’s Reply Memorandum in Support of Its Mo­
tion to Dismiss (“Anthem Reply Mem.”) (Doc. 125) at 5 (“Plaintiffs’
allegations do not challenge any amended or new terms of the
2012 PBM Agreement.”).
7 It is unclear how “competitive benchmark pricing” is de­
fined. The phrase is not defined in the PBM Agreement and none
of the parties attached Health Strategy’s report or explained
Health Strategy’s understanding of the phrase. Plaintiffs sought,
but were unable to obtain, the report in early discovery. See SAC
1 138 n.8.

21a
drug pricing was not consistent with “competitive
benchmark pricing.” Id. *1 165. Anthem provided ESI
with different pricing terms that it believed would be
consistent with competitive prices. Id. ESI neither
timely disputed Anthem’s proposed pricing terms, nor
did it make a counter-proposal. Id. 166. On April 1,
2015, Anthem provided ESI with a formal notice of
breach as required under the PBM Agreement. Id.
‘R 167. In June 2015, ESI contacted Anthem about the
dispute, but refused to negotiate over Anthem’s pro­
posed pricing terms. Id. 170.
Anthem and ESI representatives met on Septem­
ber 15, 2015, but ESI continued to refuse to negotiate
over Anthem’s proposed pricing teems. Id. ‘R 171. Over
the next few months, Anthem and ESI continued to
communicate, but did not meaningfully negotiate over
their pricing disputes. Id. M 171-78. On December 2,
2015, Anthem sent a revised pricing proposal to ESI,
and, hearing no response, emailed again on December
14, 2015. Id. M 179-80. The next day, ESI responded
and reiterated its position that it was not obligated
to negotiate over Anthem’s proposed price terms. Id.
'll 181. ESI informed Anthem it would respond sub­
stantively to the December 2, 2015 proposal in two
weeks. Id. On January 7, 2016, ESI sent Anthem a
counter-proposal that reduced pricing by $1 billion
over the remaining life of the PBM Agreement. Id.
*R 184. A week later, on January 13, Anthem responded,
telling ESI that “Express Scripts’ excessive pricing is
harming Anthem and its customers. . . . Anthem is
prepared to accept something less than competitive

22a
benchmark pricing . . . but obviously will not accept
Express Scripts’ grossly inflated pricing proposal.” Id.
![ 185. On January 22,2016, Anthem sent ESI its third
pricing proposal. Id. 1 186. On February 3, 2016, rep­
resentatives from Anthem and ESI met a second time,
and following the meeting, on February 5, Anthem sub­
mitted a proposal discussed in person. Id. M 188-91.
On February 12,2016, ESI sent Anthem a counter-pro­
posal that was not substantially different from its Jan­
uary 7, 2016 proposal. Id. 192.
After two additional in-person meetings, and
much back and forth over the following month, ESI’s
position on pricing remained the same. Id. H 198. On
March 21, 2016, Anthem sued ESI over its pricing dis­
pute, making Anthem’s allegations of price inflation
public. See Anthem v. Express Scripts, Inc., 16 Civ. 2048
(S.D.N.Y. 2016).
D. Alleged Harm to Plaintiffs
Plaintiffs in this case are six individuals (“Sub­
scriber Plaintiffs”) and two fiduciaries of ERISA health
plans (“Plan Plaintiffs”). Both sets of Plaintiffs seek to
represent a class. Plaintiffs define the Subscriber Class
as:
All persons who are participants in or benefi­
ciaries of any health care plan from December
1, 2009 to the present in which Anthem pro­
vided prescription drug benefits through an
agreement with Express Scripts and who paid
a percentage based co-insurance payment (in

23a
any percentage amount, including 100%) in
the course of using that prescription drug ben­
efit.
SAC f 303.8 Plaintiffs define the Plan Class as:
Fiduciaries of all self-funded employee wel­
fare benefit plans administered by Anthem
from December 1, 2009 to the present in
which Anthem provided prescription drug
benefits through an agreement with Express
Scripts.
Id. ? 302.
Plaintiffs all argue that, because Health Strat­
egy’s report suggested that the PBM Agreement pric­
ing was $3 billion more expensive than “competitive
benchmark” pricing annually, ESI has been setting
prescription drug pricing at inflated rates. See id.
1 133. The Subscriber Plaintiffs allege that under their
health plans, they are responsible for payment of coin­
surance charges. Id. ‘jl 4. Co-insurance payments are a
percentage share of the costs of a prescription, and are
8 Plaintiffs propose three sub-classes of the Subscriber Class.
First, a Subscriber ERISA Sub-Class, comprised of individuals
within the Subscriber Class who received their health benefits
through an ERISA-governed employee welfare benefit plan. Id.
K 304(a). Second, a Subscriber Non-ERISA Sub-Class, comprised
of individuals within the class who received health benefits from
a non-ERISA-govemed health plan. Id. *1 304(b). Finally, Plain­
tiffs seek to define a Subscriber ACA Sub-Class, comprised of
“[a] 11 Class Members who paid a percentage based co-insurance
charge for prescription medications to treat HIV/AIDS, Diabetes,
Cancer, Epilepsy, Cerebral Palsy, Multiple Sclerosis, and Muscu­
lar Dystrophy.” Id. 1 304(c).

24a
specified in individual health plans. Id. n.2. Because
co-insurance payments are set as a percentage, in­
flated prescription drug prices set by ESI would inflate
the co-insurance amount Subscriber Plaintiffs are re­
quired to pay. Id. 1 149.
The Plan Plaintiffs are health plans that are selffunded by employers but operated under ASO agree­
ments with Anthem. Id. M 3, 5. They allege that with
respect to their plans, Anthem absorbed none of the
costs of inflated prescription pricing, and they were re­
quired to cover the difference between the PBM Agree­
ment pricing and “competitive benchmark pricing”
using plan assets. Id. f 148. Each of the Plaintiffs also
makes specific allegations detailing their overpayment
for prescription drugs.
1. John Doe One
Plaintiff John Doe One, a resident of Ohio, pur­
chased Anthem health insurance in January 2016
through the insurance exchange set up under the
ACA. SAC 35-36. His plan, Anthem Gold Pathway
X HMO, included prescription medication benefits ad­
ministered by ESI. Id.9 Under the plan, Doe One is
responsible for a co-insurance payment to ESI. Id.
On February 9,2016, he received an invoice from ESI
for $1,280.37 for a thirty day supply of his HIV
y

9 Doe One did not recall seeing a notice explaining that ESI
would be the Pharmacy Benefits Manager (PBM) for his plan. Id.

25a
medication Atripla.10 Id. 38. On March 2, 2016, Doe
One received an invoice for $736.12.11 Id. At that time,
the ESI website listed the total price of a ninety day
supply of Atripla at $7,361.19. Id. According to Plain­
tiffs, the price of Atripla for that same time period may
actually have been as low as $6,431.01. Id. ^ 39.
Because Doe One believed that he had been over­
charged for Atripla relative to market pricing, he sub­
mitted a letter to ESI’s general counsel and Anthem’s
grievances and appeals department on April 11, 2016.
Id. 1 40. In his letter, he sought a refund of the portion
of his co-insurance payment attributable to ESI’s al­
legedly inflated prices. Id. He also asked for a refund
for “all others similarly situated.” Id. On May 10,2016,
Doe One’s request was denied.
2. John Doe Two
Plaintiff John Doe Two, a resident of California,
joined a preferred provider organization (“PPO”) plan
offered by Anthem to his employer, MUFG Union
Bank, N.A.,12 in January 2015. Id. H 42. The PPO
plan includes prescription medication benefits admin­
istered by ESI, under which Doe Two is responsible for

10 Of that, $1,150 was attributable to Doe One’s deductible,
and $130.37 was his additional co-insurance payment.
11 All of this cost was attributable to Doe One’s co-insurance
payment.
12 MUFG Union Bank is based in New York City, New York.
Id.

26a
a co-insurance payment. Id.13 Doe Two was prescribed
three specialty HIV medications—Truvada, Intelence,
and Isentress—for which he was required to make 20%
co-insurance payments. Id. 46. In February 2015,
Doe Two paid a total of $715.58 in co-insurance pay­
ments for a thirty day supply of the three drugs. Id.u
In March 2015, Doe Two paid a total of $731.57 for an­
other thirty day supply of his medications. Id. ^ 47.15
In July 2015, Doe Two was required to obtain HIV
medications through ESI’s mail-order pharmacy Accredo rather than the retail pharmacy he had previ­
ously used. Id. ^ 48. He also began receiving ninety day
supplies. Id. That month, Doe Two paid $1,780.98 in
co-insurance payments for his ninety day supply of his
medications. Id. Doe Two made similar co-insurance
payments from July 2015 through June 2016. Id.
In June 2015, ESI’s web portal listed the total
price for a ninety day supply of Truvada at $4,222.37
(which amounts to $1,407.46 for a thirty day supply).
Id. However, Doe Two alleges that in this same time
period, the market price for a thirty day supply of
13 Doe Two did not recall seeing a notice explaining that ESI
would be the Pharmacy Benefits Manager (PBM) for his plan. Id.
'll 43.
14 That month, ESI listed the price of a thirty day supply of
Truvada at $1,325.45, of Intelence at $1,008.32, and of Isentress
at $1,244.14. Id. Doe Two has alleged that those prices were in­
flated.
15 That month, ESI listed the price of a thirty day supple of
Truvada at $1,341.71, of Intelence at $1,056.69, and of Isentress
at $1,259.45. Id. Doe Two has alleged that those prices were in­
flated.

27a
Truvada was $1,284.28. Id. 49. ESI’s listed price for
a ninety day supply of Intelence was $3,109.52 (which
amounts to $1,036.51 for a thirty day supply). Id. f 48.
Doe Two alleges that in this same time period, the
market price for a thirty day supply of Intelence was
$816.18. Id. 49. ESI’s listed price for a ninety day
supply of Isentress was $3,707.30 (which amounts to
$1,235.77 for a thirty day supply). Id. 48. Doe Two
alleges that the market price for a thirty day supply of
Isentress was $1,205.41. Id. M 49.16
On April 11,2016, Doe Two sent a letter to his em­
ployer and Anthem’s grievances and appeals depart­
ment explaining that he believed he was overcharged
for prescription drugs, and seeking a refund of the
amount of his co-insurance payments attributable to
ESI’s inflated prices. Id. *}[ 50. He also asked for a re­
fund to any other similarly situated subscribers. Id. On
May 2,2016, Anthem informed Doe Two that there was
nothing Anthem could do to assist him Id.
John Doe Two alleges that his PPO plan is an em­
ployee welfare benefit plan governed by ERISA. Id.
<1142.

16 The SAC actually alleges that “based on publicly available
information, the total cost” of the medications “should be” $1,284.28
for Truvada, $816.18 for Intelence, and $1,205.41 for Isentress.
Id. Plaintiffs do not explain why they determined that those fig­
ures “should be” the prices for each of the drugs John Doe Two is
prescribed. Drawing all reasonable inferences in favor of Plain­
tiffs, the Court will assume that Plaintiffs have alleged that the
market price of those drugs should have been $1,284.28, $816.18,
and $1,205.41, respectively.

28a
3. Karen Burnett

)

Plaintiff Karen Burnett, a Kentucky resident, has
been enrolled in a plan sponsored by her spouse’s em­
ployer, LG&E and KU Energy LLC,17 since at least
2010. Id. 1 52. Her plan, the LG&E and KU Medical
Dental and Vision Care Plan, provided health benefits
through an Anthem ASO Plan. Id. ^ 53. Burnett’s pre­
scription drug benefits were provided through ESI. Id.
'll 54.18 Under Burnett’s plan, she was responsible for
all prescription medication pricing that fell below her
annual deductible. Id. K 55. She was also responsible
for the full cost of any medication obtained from an out
of network provider. Id. Since May 2014, Burnett has
regularly been prescribed ten different prescription
medications. Id. 1 57. She has paid Express Scripts a
total of $1,196 for the medications she received from
ESI’s mail-order pharmacy. Id. She also estimates that
she paid $283 to her retail pharmacy for prescription
medications (at prices set by ESI) in the same time pe­
riod. Id. At one point during this period, Burnett paid
$128.23 for 180 tablets of Buproprion. Id. *1 58. How­
ever, Burnett alleges that the average price of that
quantity and strength of Buproprion at the time was
“as low as” $66.72. Id.

17 The company is based in Louisville, Kentucky. Id. H 52.
18 The LG&E Plan stated, “If you enroll in one of the Anthem
medical options, you are automatically enrolled in prescription
drug coverage administered by Express Scripts.” Id.

29a
Burnett alleges that her health plan is an em­
ployee welfare benefit plan governed by ERISA. Id.
I 52.
4. Brendan Farrell
Plaintiff Brendan Farrell, a New York resident,
has received health care through his employer, Veri­
zon Communications,19 since at least 1999. Id. ‘I 61.
His plan, the Verizon Medical Expense Plan for New
York and New England Associates, provided benefits
through an Anthem ASO plan. Id. M 61-62. His pre­
scription drug benefits were administered by ESI. Id.
63. Under the plan, and depending on the medica­
tion, Farrell was required to pay between 30% and
100% of the price charged by ESI for prescription med­
ications below his annual deductible or a flat co-pay
plus the cost differential between the brand-name and
generic version of the drug. Id. 64. If Farrell used a
pharmacy outside of ESI’s network, he was responsible
for between 30% to 40% of the price ESI charged for
the prescription and the cost differential between ESI’s
price and the retail price charged at the pharmacy. Id.
Since June 2014, Farrell has purchased at least
ten different prescriptions for himself or other benefi­
ciaries under his plan. Id. 66. He paid ESI $424 for
medications he received from ESI’s mail-order phar­
macy, Accredo. Id. He also estimates that he paid
$227 to retail pharmacies for prescription drugs. Id.
At one point, Farrell paid $12.13 for 60 milliliters of
19 Verizon is based in New York City, New York. Id.

61.

30a
Bromphen Syrup. Id. 1 67. However, Farrell alleges
that the average cost of that medication is “as low as”
$10.74. Id. Similarly, in December 2016, Farrell paid
$924.84 for 50 grams of Retin-a Micro Pump Gel. Id.
Farrell alleges that the average cost of that medication
is “as low as” $874.98. Id.
Farrell alleges that his health plan is an employee
welfare benefit plan governed by ERISA. Id. ‘R 61.
5. Robert Shullich
Plaintiff Robert Shullich, a resident of New Jersey,
is a participant in the AmTrust Health and Welfare
Plan, sponsored by his employer, AmTrust Financial
Services, Inc.20 Id. K 70. Shullich has participated in
the plan, which is administered by Anthem under an
ASO agreement, since September 2014. Id. K 70-71.
Shullich’s prescription drug benefits are provided by
ESI. Id. 72. Under his plan, Shullich is responsible
for a co-insurance payment of 25% of the price set by
ESI for a “preferred” brand name medication and 50%
of the price set by ESI for a “non-preferred” brand
name medication. Id. 'll 73. Since October 2014, Shullich
has been prescribed over ten different prescription
drugs, and paid a total of $1,317 to ESI for those med­
ications. Id. <1 74. He estimated paying an additional
$203 directly to his pharmacy. Id. At one point, Shullich
paid $10 for 90 tablets of Furosemide. Id. 'll 75. Shullich
alleges that the average cost of Furosemide at that time
was “as low as” $1.11. Id. Shullich also paid $57.83 for
20 AmTrust is based in New York City, NY. Id. ^ 70.

31a
190 tablets of Potassium Chloride Extended Release.
Id. Shullich alleges that the average cost of this medi­
cation was “as low as” $41.15 at that time.
Shullich alleges that his health plan is an em­
ployee welfare benefit plan governed by ERISA. Id.
SI 70.
6. Brian Corrigan
Plaintiff Brian Corrigan, a resident of Kentucky,
signed up for an Anthem health care plan through an
ACA exchange in January 2016. Id. M 78-79. Corri­
gan was a participant in the Anthem Silver Pathway X
PPO 10% for HAS S04 plan until January 2017. Id.
Under that plan, his prescription medication benefits
were administered by ESI. Id. Corrigan was required
to make a 10% co-insurance payment for all prescrip­
tion medications. Id. In June 2016, Corrigan paid
$43.16 for 30 tabs of Pravastatin Sodium and Omepra­
zole Delayed Release. Id. 180.21 When Corrigan
switched plans in 2017, he joined the Anthem Silver
Pathway X HMO 5300 S05 plan, which still provides
prescription drug benefits administered through ESI.
Id. 81.
7. Stamford Health
Plaintiff Stamford Health, Inc. is a Connecticut
corporation and a fiduciary of the Stamford Plan, an
employee welfare benefit plan funded by Stamford
21 Corrigan alleges that these prices were inflated. Id.

32a
Health contributions. Id. 'flu 84-86. Anthem adminis­
tered certain Stamford Plan benefits pursuant to an
ASO agreement until the end of 2014. Id. 87.22 An­
them also administered prescription drug benefits for
the Stamford Plan. Id. The plan documents provided
that “the Maximum Allowed Amount for Prescription
Drugs is the amount determined by Anthem BCBS us­
ing prescription drug cost information provided by the
Pharmacy Benefits Manager (PBM).” Id. f 88. Stam­
ford Plan assets were used to pay prescription medi­
cation benefits, which cost the Plan over six million
dollars in 2014. Id. 1 89-90.
8. Brothers Trading Company
Plaintiff Brothers Trading Company, Inc., an
Ohio corporation, is the fiduciary of its employee wel­
fare benefit plan, the Brothers Trading Plan. Id.
H 92—93. The Brothers Trading Plan is funded by con­
tributions from Brothers Trading, and has been admin­
istered by Anthem through an ASO agreement since
March 1,2012. Id. M 94-95. Brothers Trading Plan as­
sets are used to pay prescription medication costs for
participants and beneficiaries. Id. M 96-97. In 2015,
Brothers Trading spent $900,000 on prescription med­
ications. Id. ‘il 99. Brothers Trading alleges that the
prices it pays for its beneficiaries’ prescription drugs
are 584% to 1317% higher than the prices that would
22 Stamford Health retained the ability to override certain
decisions of Anthem with respect to the administration of the
Stamford Plan. The SAC does not indicate what types of decisions
Stamford Health could override. Id.

33a
be charged by other providers and retail or online
pharmacies. Id. 1100.
E. Procedural History
On May 6, 2016, Plaintiffs filed a complaint
against ESI. Doc. 1. On September 30, 2016, Plaintiffs
filed an amended complaint adding Anthem and Does
1-10 as defendants. Doc. 41. On March 2, 2017, Plain­
tiffs filed the SAC, alleging seventeen causes of action.
* Doc. 78. Specifically, against Anthem, the Subscriber
ERISA Sub-Class and/or the Plan Class have alleged
breach of ERISA fiduciary duties (Claims 3 and 9), pro­
hibited transactions under ERISA (Claims 4 and 6)
and co-fiduciary liability under ERISA (Claim 7). The
Non-ERISA Subscriber Sub-Class has alleged breach
of the covenant of good faith and fair dealing (Claim
15). Against ESI, the Subscriber ERISA Sub-Class
and/or the Plan Class have alleged breach of ERISA
fiduciary duties (Claims 1 and 8), prohibited transac­
tions under ERISA (Claims 2 and 5), and cofiduciary
liability under ERISA (Claim 7). All Plaintiffs have al­
leged violations of RICO (Claim 10). The Non-ERISA
Subscriber Sub-Class has alleged breach of contract
(Claim 11), quantum meruit/restitution/unjust enrich­
ment (Claim 12), and violations of New York’s General
Business Laws and similar state consumer protections
laws (Claims 13 and 14). Those plaintiffs have also
sought declaratory relief (Claim 16). Finally, the ACA

34a
Subscriber Sub-Class has alleged violations of the
ACA’s anti-discrimination provision (Claim 17).23
On April 24,2017, each party moved to dismiss the
claims against it. Docs. 93, 96.
II.

LEGAL STANDARD

Under Rule 12(b)(6), a complaint may be dis­
missed for “failure to state a claim upon which relief
can be granted.” Fed. R. Civ. P. 12(b)(6). When ruling on
a motion to dismiss pursuant to Rule 12(b)(6), the
Court must accept all factual allegations in the com­
plaint as true and draw all reasonable inferences in
the plaintiff’s favor. Koch, 699 F.3d at 145. However,
the Court is not required to credit “mere conclusory
statements” or “threadbare recitals of the elements of
a cause of action.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009),, (citing Bell Atl. Corp. v. Twombly, 550 U.S. 544,
555 (2007)). Further, the Court is not obliged to recon­
cile and accept as true “pleadings that are contra­
dicted by other matters asserted or relied upon or
incorporated by reference. . . .” Xi Wei Lin v. Chinese
Staff & Workers’Ass’n, No. 11 Civ. 3944 (RJS), 2012
WL 5457493, at *4 (S.D.N.Y. Nov. 8,2012) (quoting Fisk
v. Letterman, 401 F. Supp. 2d 362,368 (S.D.N.Y. 2005)).
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter ... to ‘state a claim to
23 Although not all Plaintiffs have brought each claim against
Defendants, for the sake of simplicity this Court will refer to
“Plaintiffs” throughout the opinion to refer to the Plaintiffs who
have brought the relevant claim.

35a
relief that is plausible on its face.’” Iqbal, 556 U.S. at
678 (quoting Twombly, 550 U.S. at 570). A claim is fa­
cially plausible “when the plaintiff pleads factual con­
tent that allows the court to draw the reasonable
inference that the defendant is liable for the miscon­
duct alleged.” Id. (citing Twombly, 550 U.S. at 556).
Federal Rule of Civil Procedure 8 “marks a notable and
generous departure from the hypertechnical, code­
pleading regime of a prior era, but it does not unlock
the doors of discovery for a plaintiff armed with noth­
ing more than conclusions.” Id. at 678-79. If the plain­
tiff has not “nudged [her] claims across the line from
conceivable to plausible, [the] complaint must be dis­
missed.” Twombly, 550 U.S. at 570.
The question in a Rule 12 motion to dismiss “‘is
not whether a plaintiff will ultimately prevail but
whether the claimant is entitled to offer evidence to
support the claims.’” Sikhs for Justice v. Nath, 893
F. Supp. 2d 598, 615 (S.D.N.Y. 2012) (quoting Villager
Pond, Inc. v. Town of Darien, 56 F.3d 375, 378 (2d Cir.
1995)). “[T]he purpose of Federal Rule of Civil Proce­
dure 12(b)(6) ‘is to test, in a streamlined fashion, the
formal sufficiency of the plaintiffs statement of a claim
for relief without resolving a contest regarding its sub­
stantive merits.’ ” Halebian v. Berv, 644 F.3d 122, 130
(2d Cir. 2011) (quoting Global Network Commc’ns, Inc.
v. City of New York, 458 F.3d 150,155 (2d Cir. 2006)).

36a
III.

STANDING

In its motion to dismiss, Anthem argues that all
Plaintiffs lack Article III standing. Memorandum of
Law in Support of Anthem’s Motion to Dismiss (“An­
them Mem.”) (Doc. 94) at 13-15. The “irreducible con­
stitutional minimum” of Article III standing requires
that a plaintiff has suffered an injury-in-fact that is
both fairly traceable to a defendant’s conduct and redressable by a favorable decision. Spokeo, Inc. v. Rob­
ins, 136 S. Ct. 1540, 1547 (2016). It is the plaintiff’s
burden to establish that standing exists by a prepon­
derance of the evidence. See Katz v. Donna Karan Co.,
L.L.C., 872 F.3d 114,120 (2d Cir. 2017). Each element
of standing must be supported “with the manner and
degree of evidence required at the successive stages of
the litigation.” John v. Whole Foods Mkt. Grp., Inc., 858
F.3d 732,736 (2d Cir. 2017) (quoting Lujan v. Defenders
of Wildlife, 504 U.S. 555, 561 (1992)). Therefore, at the
pleading stage, “general factual allegations of injury
resulting from the defendant’s conduct may suffice.” Id.
Anthem here challenges the first element—injuryin-fact. To establish injury-in-fact, a plaintiff must
show that she suffered an invasion of a legally pro­
tected interest that is “concrete and particularized”
and “actual or imminent” rather than “conjectural or
hypothetical.” Spokeo, 136 S. Ct. at 1548 (quoting
Lujan, 504 U.S. at 560). Anthem argues that Plaintiffs’
allegations of overpayment for prescription drugs are
nothing more than conclusory allegations of general­
ized wrongdoing. Anthem Mem. at 14. In the Second
Circuit, however, “overpaying for a product results in a

37a
financial loss [that] constitute [s] a particularized and
concrete injury in fact.” John, 858 F.3d at 736. As dis­
cussed above, Plaintiffs have alleged that they were
forced to pay inflated co-insurance rates because the
PBM Agreement allowed ESI to set “inflated prescrip­
tion medication prices” during the ten year term of the
Agreement. SAC M 4, 12-15, 18. Because Plaintiffs
have alleged that they overpaid for certain prescrip­
tion drugs as a result of inflated pricing set through
the PBM Agreement, they have adequately alleged injury-in-fact and have made a sufficient showing, at this
early stage in the litigation, to establish Article III
standing.
Separately, in its motion to dismiss, ESI argues
that two plaintiffs in particular—Plaintiffs Burnett
and Farrell—lack standing because they have not al­
leged an injury that is “fairly traceable” to Defendants’
conduct. Memorandum of Law in Support of ESI’s Mo­
tion to Dismiss (“ESI Mem.”) (Doc. 98) at 16. ESI ar­
gues that Burnett and Farrell are members of health
plans which receive prescription drug benefits directly
from ESI and not through Anthem; any inflated co-in­
surance they paid, therefore, would not be “fairly trace­
able” to the PBM Agreement at issue in this litigation.
Id. In support of this argument, ESI attaches a decla­
ration from Angela Adler, a Vice President for ESI’s
Anthem Division. Id.; Declaration of Angela Adler in
Support of ESI’s Motion to Dismiss (“Adler Decl”) (Doc.
99). In her declaration, Adler states that since 2011,
Burnett’s health plan contracted directly with ESI to
receive PBM services. Adler Decl. f 3. Similarly, Adler

38a
states that since 2009, Farrell’s health plan has con­
tracted directly with either ESI or Medco Health Solu­
tions, Inc. to receive PBM services. Id. 4.24
When a defendant makes a factual challenge to a
plaintiff’s standing by attaching evidence beyond the
pleadings, a plaintiff may either “come forward with
evidence of their own to controvert that presented by
the defendant” or may rely on their pleadings “if the
evidence proffered by the defendant is immaterial be­
cause it does not contradict plausible allegations that
are themselves sufficient to show standing.” Katz, 872
F.3d at 119 (quoting Carter v. HealthPort Tech., LLC,
822 F.3d 47, 57 (2d Cir. 2016)). Here, Plaintiffs allege
that Burnett and Farrell are insured by Anthem; as
such, they were “Covered Individuals” entitled to re­
ceive “Covered Services” under the PBM Agreement.
Therefore, they argue, it is immaterial whether their
employers contracted directly with ESI, because ESI’s
ability to inflate prices for Burnett and Farrell, like
all Plaintiffs, was tied to the provisions of the PBM
Agreement. See Memorandum of Law in Opposition
to Motions to Dismiss (“PI. Mem.”) (Doc. 109) at 14;
PBM Agreement M 1.14,1.17 (defining covered indi­
viduals and covered services). However, Burnett and
Farrell have not put forward evidence showing that
their insurance plans provided for prescription drug
services through Anthem, rather than through ESI di­
rectly. The PBM Agreement only governs ESI’s rela­
tionship to individuals who are entitled to receive
24 Adler does not present any documentary evidence in sup­
port of these statements.

39a
drugs, devices, supplies, or equipment “in accordance
with and subject to the terms and conditions ... of the
applicable [Anthem-provided insurance] Plan.” PBM
Agreement <R<[[ 1.14, 1.17, 1.45. ESI’s evidence that
Burnett and Farrell were not entitled to receive drugs
or devices under their employers’ Anthem insurance
plan is therefore not immaterial to determining stand­
ing. Because Plaintiffs did not offer evidence to contro­
vert Ms. Adler’s sworn declaration and it is Plaintiffs’
burden to establish standing by a preponderance of the
evidence, ESI’s motion to dismiss Plaintiffs Burnett
and Farrell is granted.25
IV.

STATUTE OF LIMITATIONS

Anthem argues that Plaintiffs’ ERISA claims
(Claims 1-9) should be dismissed as time-barred. An­
them Mem. at 15-20. ESI argues that Plaintiffs’
ERISA claims should be dismissed to the extent that
they seek relief for conduct predating May 6, 2010,
which is six years prior to the date the Complaint was
filed—May 6, 2016. ESI Mem. at 32-33. Plaintiffs ar­
gue that all claims based on overcharges under the
PBM Agreement, including those involving conduct
that occurred before May 6, 2010, are timely. PI. Mem.
at 14-21.

\

r•

ERISA provides three alternate statutes of limita­
tions. Generally, a plaintiff has six years from the date
25 Because none of Plaintiffs’ seventeen causes of action were
brought by either Burnett or Farrell alone, this decision does not
limit Plaintiffs’ ability to move forward on any of its claims.

40a
of the last action that was part of the breach of fiduci­
ary duty to file a complaint. 29 U.S.C. § 1113(1). How­
ever, if the plaintiff developed actual knowledge of the
breach, then she has only three years after she learned
of the breach to file a complaint. Id. § 1113(2). Finally,
in the case of a defendant’s fraud or concealment, the
six year statute of limitations is tolled “until the plain­
tiff discovers, or should with reasonable diligence have
discovered, the breach.” Id. 227-28.
A. Conduct after May 6, 2010
Anthem argues that all of Plaintiffs’ ERISA claims
against it are time barred because the claims arose on
December 1, 2009, the date that Anthem and ESI en­
tered into the PBM Agreement, which is more than six
years before the filing of the Complaint. Anthem Mem.
at 16. In opposition, Plaintiffs argue that they have al­
leged violations of ERISA based on conduct in 2009 as
well as conduct of Anthem and ESI that occurred
within the standard six year statute of limitations set
forth in Section 1113. Namely, they point to the signing
of the amended PBM Agreement in 2012 and the fail­
ure of Anthem to monitor ESI’s pricing throughout the
six years leading up to the filing of the Complaint. PI.
Mem. at 18-21.
“The renewal of a contract clearly implicates a
[fiduciary’s] duty under ERISA to review plan in­
vestments and eliminate imprudent ones.” Bona v.
Barasch, No. 01 Civ. 2289 (MBM), 2003 WL 1395932,
at *18 (S.D.N.Y. Mar. 20, 2003). The renewal of a

41a
contract that violates ERISA, then, is itself a violation
of ERISA. Id. at *19. A plaintiff may therefore sue un­
der ERISA for the renewal of a contract where the re­
newal took place within six years of the filing of the
complaint even if the original execution of the contract
fell outside the statute of limitations. Id. Here, Plain­
tiffs allege—and it is not disputed—that Anthem and
ESI amended the PBM Agreement at least as recently
as January 1, 2012. SAC 12 n.3. Based on Plaintiffs’
allegations, the ERISA causes of action arose, for pur­
poses of the statute of limitations, on January 1, 2012,
within six years of the filing of the Complaint. See L.I.
Head Start Child Dev. Servs., Inc. v. Econ. Opportunity
Comm’n of Nassau Cty., Inc., 558 F. Supp. 2d 378, 400
(E.D.N.Y. 2008), aff’d 710 F.3d 57 (2d Cir. 2013) (ex­
plaining that “a new cause of action accrues for each
violation where separate violations of the same type,
or character, are repeated over time”).
Second, Plaintiffs’ claims against Anthem include
allegations that Anthem failed to appropriately moni­
tor ESI’s pricing with respect to Anthem subscribers.
E.g., SAC OT 332, 360. Assuming, without deciding,
that Anthem owed a duty to monitor ESI’s pricing,
then that duty began on December 1, 2009 and ran
throughout the entire six year period preceding the fil­
ing of the Complaint. See Tibbie v. Edison Int’l, 135
S. Ct. 1823, 1828-29 (2015) (finding that an ERISA fi­
duciary “has a continuing duty of some kind to moni­
tor” financial decisions and that if the alleged breach
of the duty to monitor “occurred within six years of
suit, the claim is timely”).

42a
Thus, none of Plaintiffs’ ERISA claims are timebarred to the extent they are based on conduct occur­
ring after May 6, 2010.26
B. Conduct before May 6, 2010
Plaintiffs also argue that conduct occurring before
May 6, 2010 is not time-barred because the six year
statute of limitations should be tolled pursuant to
Section 1113’s “fraud or concealment” exception. To
qualify for tolling under the fraud or concealment ex­
ception, a complaint must allege that a fiduciary either
“(1) breached its duty by making a knowing misrepre­
sentation or omission of a material fact to induce an
employee/beneficiary to act to his detriment; or (2) en­
gaged in acts to hinder the discovery of a breach of fi­
duciary duty.” Janese v. Fay, 692 F.3d 221,228 (quoting
Caputo v. Pfizer, Inc., 267 F.3d 181,190 (2d Cir. 2001)).
A plaintiff must plead fraudulent allegations “with
particularity,” specifying the “time, place, speaker, and
content of the alleged misrepresentations,” explaining
“how the misrepresentations were fraudulent,” and de­
scribing the events giving rise to a “strong inference”
that a defendant had an intent to defraud, knowledge
of the falsity of the statements, or a reckless disregard
for the truth. Id. (quoting Caputo, 267 F.3d at 191). To
allege concealment, a plaintiff must plead facts giving
rise to a duty to disclose the relevant information. See
26 For these reasons, Anthem’s arguments with respect to the
statute of limitations for the state law claims brought by the Sub­
scriber Non-ERISA Plaintiffs also fail. See Anthem Mem. at 1920.

43a
DePasquale v. DePasquale, No. 12. Civ. 2564 (RRM)
(MDG), 2013 WL 789209, at *12 (E.D.N.Y. Mar. 1,
2013), aff’d 568 F. App’x 55 (2d Cir. 2014)).
Plaintiffs offer three possible omissions that they
argue enable them to take advantage of the fraud or
concealment exception. First, Plaintiffs allege that the
Defendants breached their duty by omitting and con­
cealing the relationship between the PBM Agreement
and the NextRx Agreement, which they did not dis­
cover until they learned of ESI’s allegations in the Anthem-ESI lawsuit. PI. Mem. at 16.27 Second, Plaintiffs
allege that Defendants knowingly withheld material
terms of the PBM Agreement, which Plaintiffs alleged
“at least in part enabled ESI to overcharge for pre­
scription medications.” Id. at 17.28 Third, Plaintiffs ar­
gue that Defendants failed to disclose the market
analysis conducted by a third party consultant re­
tained by Anthem, which Anthem alleges shows ESI’s
pricing was not at “competitive benchmark” levels. Id.
Plaintiffs maintain that Defendants had a duty to
disclose each of these three pieces of information be­
cause both were acting as fiduciaries of Plaintiffs’
health plans and ERISA fiduciaries have an “affirma­
tive duty to inform when the [fiduciary] knows that
27 Plaintiffs allege that'Anthem continues to omit material
facts by not admitting that the two agreements were related. Id.
at 16-17.
28 Plaintiffs do not specify which terms were material and
enabled ESI to set inflated drug pricing, although they admit they
received an unredacted copy of the PBM Agreement in late April
2017. Id.

44a
silence might be harmful.” Id. at 18; In re Polaroid
Litig., 362 F. Supp. 2d 461,478 (S.D.N.Y. 2005) (quoting
Bixler v. Central Pennsylvania Teamsters Health &
Welfare Fund, 12 F.3d 1292, 1300 (3d Cir. 1993)). It is
true that in the Second Circuit, ERISA fiduciaries have
a duty to disclose “changes in the terms of a benefit
plan and complete and accurate information about the
administration of the plan.” In re Bear Stearns Co., Inc.
Sec., Derivative, and ERISA Litig., 763 F. Supp. 2d 423,
576 (S.D.N.Y. 2011) (citing Devlin v. Empire Blue Cross
and Blue Shield, 274 F.3d 76, 88-89 (2d Cir. 2001)).
At the same time, “it is inappropriate to infer an un­
limited disclosure obligation,” id. at 576-77, and this
Circuit has rejected breach of fiduciary duty claims
seeking disclosure of valuation reports and financial
information regarding plan investments. See Gearren
v. The McGraw-Hill Companies, Inc., 660 F.3d 605, 610
(2d Cir. 2011); In re Citigroup ERISA Litig., 662 F.3d
128,142-43 (2d Cir. 2011), abrogated on other grounds
by Fifth Third Bancorp v. Dudenhoeffer, 134 S. Ct. 2459
(2014); Bd. of Trustees of the CWAJITU Negotiated Pen­
sion Plan v. Weinstein, 107 F.3d 139, 146-47 (2d Cir.
1997).
Plaintiffs here claim that Defendants had a duty
to disclose nonpublic financial information regarding
their contractual arrangements and a third-party eval­
uation of the PBM Agreement and the pricing agreed
to thereunder. This is far from the type of disclosure
typically required under ERISA: namely, “information
about plan benefits” See Gearren v. McGraw-Hill Com­
panies, Inc., 690 F Supp. 2d. 254, 271 (S.D.N.Y. 2010),

45a
aff’d 660 F.3d 605 (2d Cir. 2011) (quoting In re
Citigroup ERISA Litig., No. 07 Civ. 9790, 2009 WL
2762708, at *21 (S.D.N.Y. Aug. 31, 2009)). Plaintiffs do
not, for example, argue that they were unable to see
their co-insurance rate and therefore could not have
discerned the total prescription drug prices ESI was
charging. Thus, even assuming at this stage of the
analysis that Defendants were ERISA fiduciaries, this
Court finds they did not have an affirmative duty to
disclose the content of the PBM Agreement, the con­
nection between the PBM Agreement and the NextRx
Agreement, or the market analysis conducted by An­
them’s expert. For this reason, Plaintiffs have not
shown that they are entitled to equitable tolling under
ERISA’s “fraud or concealment” exception.

)

Plaintiffs alternatively argue that whether or not
the “fraud or concealment” exception applies, their
claim against Anthem for breaching the duty to moni­
tor is timely because all of Anthem’s conduct consti­
tutes a single breach or violation, and the date on
which the last breach occurred was within six years as
required under Section 1113(1)(A). PI. Mem. at 19-21.
Plaintiffs argue that this case is similar to LaScala v.
Scrufari, in which the defendant was liable for his re­
tention of unlawful compensation for a period of time
beginning more than six years before the filing of the
complaint because his conduct “in breach of his fiduci­
ary duties was in furtherance of a single scheme, con­
stituting a single breach for the purposes of ERISA
§ 413(1)(A). . . .” 330 F. Supp. 2d. 236, 256 (W.D.N.Y.
2004), aff’d 479 F.3d 213 (2d Cir. 2007). In affirming,

46a
the Second Circuit agreed that the defendant should
be liable for all of his conduct because it was done in
furtherance of a single scheme and because “numerous
of [the defendant’s] breaches occurred within the limi­
tations period.” LaScala, 479 F.3d at 220 n.l. Solely
with respect to Plaintiffs’ allegations against Anthem
for breach of the duty to monitor, then, the Court finds
that conduct pre-dating May 6,2010 is timely.
V.

ERISA

Plaintiffs bring nine claims under ERISA, seeking
relief under Sections 409 and 502. Under Section 409,
any fiduciary who breaches the provisions of ERISA is
personally liable to the plan for restoring any profits
the fiduciary gained through use of plan assets or for
“mak[ing] good” any losses the plan suffered as a re­
sult of the breach. 29 U.S.C. § 1109(a). Section 502
allows plan participants, beneficiaries, and fiduciaries
to bring actions under ERISA for equitable relief. 29
U.S.C. § 1132(a)(3). Plaintiffs allege that Anthem and
ESI have both breached three substantive provisions

47a
of ERISA: Sections 404,29 405,30 and 406.31 To succeed
under any of these claims, Plaintiffs must show that
29 Section 404 of ERISA requires ERISA fiduciaries to dis­
charge their duties “solely in the interest of the participants and
beneficiaries” of the relevant ERISA Plan. 29 U.S.C. § 1104(a)(1).
Relevant to the allegations in this case, Section 404(a)(1)(A) re­
quires that an ERISA fiduciary’s actions with respect to a Plan
are taken for the “exclusive” purpose of providing benefits to par­
ticipants and defraying the reasonable expenses of administering
the plan. Id. § 1104(a)(1)(A). Section 404(a)(1)(B) also requires
that an ERISA fiduciary discharge her duties “with the care, skill,
prudence, and diligence” that a “prudent man acting in a like ca­
pacity . . . would use.” Id. § 1104(a)(1)(B).
30
Section 405 provides for co-fiduciary liability under
ERISA. That is, where a fiduciary has breached any ERISA pro­
visions, a second fiduciary will be liable for that breach in three
circumstances. First, the second fiduciary will be liable if she
knowingly participated in or attempted to conceal an act of the
first fiduciary and knew the fiduciary’s act was a breach of his
ERISA obligations. 29 U.S.C. § 1105(a)(1). Second, the second fi­
duciary will be liable if she enabled another to fiduciary to commit
a breach by failing to act with reasonable prudence as required
under Section 404(a). Id. § 1105(a)(2). Finally, the second fidu­
ciary will be liable if she knows of the first fiduciary’s breach
and fails to make reasonable efforts to remedy the breach. Id.
§ 1105(a)(3).
31 Under Section 406, an ERISA fiduciary may not engage in
certain prohibited transactions. Section 406(a) prohibits a fiduci­
ary from engaging in transactions between the plan and a party
in interest if the fiduciary knows, among other things, that: (1)
the transaction would constitute a “sale or exchange” between the
plan and party in interest; (2) the transaction would constitute a
“furnishing of goods, services, or facilities” between the plan and
the party in interest; or (3) the transaction would constitute a
“transfer” of plan assets to the party in interest. 29 U.S.C.
§ 1106(a)(1). Section 406(b) prohibits certain transactions be­
tween the plan and the fiduciary herself Specifically, a fiduciary
may not “deal with the assets of the plan in his own interest or
for its own account.” 29 U.S.C. § 1106(b)(1). A fiduciary is also

48a
one or both Defendants was acting in a fiduciary ca­
pacity.32
ERISA’s definition of a fiduciary is “functional” as
opposed to defined by virtue of a party or entity’s posi­
tion with respect to a plan. Frommert v. Conkright, 433
F.3d 254,271 (2d Cir. 2006) (quoting LoPresti v. Terwilliger, 126 F.3d 34, 40 (2d Cir. 1997)). “In every case
charging breach of ERISA fiduciary duty,” the thresh­
old question is “whether that person was acting as a
fiduciary (that is, was performing a fiduciary function)
when taking the action subject to complaint.” Pegram
v. Herdrich, 530 U.S. 211, 226 (2000). That is because
under ERISA, “a fiduciary may have financial interests
adverse to beneficiaries.” Id. at 225. A party acts as an
ERISA fiduciary with respect to a plan, for example,
when it “exercises any discretionary authority or dis­
cretionary control respecting management of such
plan... or disposition of its assets,” or when it “has any
prohibited from participating in a transaction involving the plan
if she is acting on behalf of a party whose interests are adverse to
those of the plan. 29 U.S.C. § 1106(b)(2). Finally, a fiduciary is
prohibited from receiving consideration to her “personal account”
from any party in connection with a transaction involving plan
assets. 23 U.S.C. § 1106(b)(3).
32 As discussed above, because Section 404 only governs the
conduct of ERISA fiduciaries, if either Anthem or ESI were not
acting in a fiduciary capacity when taking the actions in question,
they cannot be liable under ERISA. Because Section 405 creates
co-fiduciary liability, if either Anthem or ESI were not acting as
fiduciaries, neither can be liable under Section 405. Section 406
prohibits certain transactions between ERISA fiduciaries and the
ERISA Plan or a party in interest; therefore, if neither Defendant
is an ERISA fiduciary, there can be no liability.

49a
discretionary authority or discretionary responsibil­
ity in the administration of such plan.” 29 U.S.C.
§ 1002(21)(A); see also Varity Corp. v. Howe, 516 U.S.
489,498 (1996).
A. ESI’s Status as an ERISA Fiduciary
ESI argues that Claims 1, 2, 7, and 8 (under Sec­
tions 404(a), 405(a), 406(b), and 409) must be dis­
missed against it because Plaintiffs have not plausibly
alleged that ESI was a fiduciary of the Plaintiffs’
ERISA plans. ESI Mem. at 17-22. The first and second
claims are brought by the Subscriber ERISA Sub-Class
and the Plan Class and allege that ESI breached its
fiduciary duty of prudence when it set prescription
medication pricing at inflated rates and engaged in
prohibited transactions when it caused the Subscriber
ERISA Plaintiffs to pay those inflated prices. SAC
M 316-17, 324. The seventh claim is brought by both
the Subscriber ERISA Sub-Class and the Plan Class
and alleges that ESI is liable for Anthem’s breaches of
fiduciary duty as a co-fiduciary under Section 405. Id.
*1 361. The eighth claim is brought by the Plan Class
and seeks relief under Section 502(a)(2). Id. 367.
Plaintiffs put forward three main arguments in sup­
port of their contention that ESI was an ERISA fiduci­
ary with respect to prescription drug pricing.

50a
1. Discretion over Pricing Based on
Section 5.6 of the PBM Agreement
First, Plaintiffs claim that ESFs discretion derives
from Section 5.6 of the PBM Agreement, which allows
Anthem or a consultant to conduct a periodic market
analysis to test whether Anthem receives “competitive
benchmark pricing” from ESI and requires Anthem
and ESI to negotiate in good faith over new pricing if
the market analysis reveals that ESI’s pricing is not
competitive.33 PI. Mem. at 24; see also PBM Agreement
f 5.6. Plaintiffs argue that this imbues ESI with dis­
cretionary control over the drug prices paid by Plain­
tiffs. PI. Mem. at 25-28. Specifically, Plaintiffs contend
ESI’s ability to set pricing through its own interpreta­
tion of “competitive benchmark pricing” gives ESI dis­
cretionary authority over the administration of the
plans. Id. at 28 (citing In re Express Scripts, Inc. PBM
Litig., No. 05 M.D. 1672 (SNL), 2008 WL 2952787, at
*13 (E.D. Mo. July 30, 2008).
In its motion to dismiss, ESI argues Plaintiffs’ al­
legations regarding ESFs discretion over pricing is
33 Anthem and ESI disagree strongly on the extent to which
Section 5.6 bound ESI to offer new pricing terms or agree to new
terms proposed by Anthem during periodic pricing reviews. See
Anthem, Inc. v. Express Scripts, Inc., No. 16 Civ. 2048 (S.D.N.Y.
2016). In this case, Anthem alleges that under Section 5.6, ESI
had an “obligation to negotiate in good faith for competitive
benchmark pricing.” Anthem Mem. at 10. Contrary to what Plain­
tiffs allege here, Anthem’s briefing does not present the argument
that Section 5.6 gave ESI discretion to set prescription drug
prices so long as those prices were in the “competitive bench­
mark” range. Id. 9-10.

51a
conclusory and therefore entitled to no weight under
IqballTwombly. ESI Mem. at 21 (citing SAC 206). It
is of course true that the Court need not credit “mere
conclusory statements” in a complaint. Iqbal, 556
U.S. at 678 (citing Twombly, 550 U.S. at 555). Here,
however, Plaintiffs assert several factual allegations
in support of its conclusory statement that ESI “has
been and continues to act as a fiduciary of all of the
ERISA plans.” SAC % 206 (alleging that ESI deter­
mines prescription drug prices paid by Anthem in­
sureds, controls its own compensation, manages the
administration of pharmacy benefits for Anthem in­
sureds, and exercises discretion over Anthem insured
drug-switching); see also id. M 133,221.
ESI further argues that it is not an ERISA fiduci­
ary because its pricing merely implemented the PBM
Agreement, and PBMs do not act as fiduciaries when
implementing pricing teens set in a contract with a
plan or insurance provider. ESI Mem. at 21. Specifi­
cally, Section 5.4 of the PBM Agreement lays out addi­
tional pricing requirements and limitations.34 PBM
34 Section 5.4 of the PBM Agreement contradicts Plaintiffs’
allegations that ESI had the discretion to set drug prices paid by
Plaintiffs. See SAC HI 206(a), (e), (i); see also id. HH 133, 221.
However, even at the motion to dismiss stage, the Court need not
credit as true “pleadings that are contradicted by other matters
asserted or relied upon or incorporated by reference.” Xi Wei Lin,
2012 WL 5457493, at *4. Plaintiffs have incorporated both the
original 2009 PBM Agreement and the amended 2012 PBM
Agreement into the SAC. See SAC H 12 n.3. This Court will look
to the PBM Agreement itself, rather than the Plaintiffs’ charac­
terization of the PBM Agreement, to determine the discretion af­
forded to ESI under its terms.

53a

Numerous courts have explained that when a ser­
vice provider or PBM acts pursuant to the terms of a
contract, it does not exercise discretionary authority
and does not act as an ERISA fiduciary. See Moeckel v.
Caremark, Inc., 622 F. Supp. 2d 663, 678 (M.D. Tenn.
2007) (“The arrangement challenged by the plaintiff is
the product of the agreement into which [the employer]
and [the PBM] entered voluntarily. No fiduciary duty
is implicated.”); see also Seaway Food Town, Inc. v.
Medical Mutual of Ohio, 347 F.3d 610, 619 (6th Cir.
2003); Bickley v. Caremark Rx, 361 F.Supp.2d 1317
(N.D. Ala. 2004), aff’d 461 F.2d 1325, 1332 (11th Cir.
2006).
In Moeckel, the plaintiffs alleged that the PBM,
Caremark, acted as an ERISA fiduciary in selecting
the national reporting service it used as the basis for
determining the average wholesale price of a prescrip­
tion drug. Moeckel, 622 F. Supp. 2d at 681. The Middle
District of Tennessee determined that Caremark’s use
of the pricing source adhered to the specific terms of
the contracts between the employer and Caremark.
And, the court found, “it is axiomatic that adherence to
existing contract terms precludes any finding of fiduci­
ary status.” Id.; see also Mulder u. PCS Health Sys. Inc.,
432 F. Supp. 450, 456 (D.N.J. 2006) (“[A] plan supervi­
sor holds no discretionary authority where its ‘obliga­
tion [is] to follow the written plan instrument and
follow the instructions of the plan administrator.’”)
(quoting Confer v. Custom Engineering Co., 952 F.2d

54a
34, 39 (3d Cir. 1991)). Because the Court finds that the
prescription drug pricing at issue here was hot subject
only to the requirements of Section 5.6, but was also
constrained by the more specific requirements of Sec­
tion 5.4 and Exhibit A of the Agreement, the Court
finds that Plaintiffs have not sufficiently alleged that
ESI was a fiduciary with respect to Section 5.6 of the
PBM Agreement.38
2. Discretion over Compensation
Next, Plaintiffs assert that ESI is a fiduciary be­
cause ESI’s control over pricing allowed it to control its
own compensation. Plaintiffs again rely on their argu­
ment that Section 5.6 of the PBM Agreement gives ESI
the ability to determine the amount to charge Anthem
and Anthem insureds for prescription drugs. PI. Mem.
at 29. Plaintiffs argue that such discretion allows ESI
to maximize its own compensation, thereby rendering
it a fiduciary under ERISA. ESI argues that Plaintiffs’
allegations that ESI could set its own compensation
are rebutted by the fact that “Anthem pays prices [to
ESI] that were specifically bargained for at arms’
length and agreed to in the PBM Agreement.” ESI
Mem. at 22 n.29.

38

Paragraph 5.6 of the PBM Agreement does imbue ESI with
some discretion by requiring that ESI agree in writing to any new
pricing terms and that Anthem and ESI negotiate in good faith
over proposed new pricing. However, Plaintiff has not claimed
that ESI’s actions in 2015 relating to the pricing re-negotiations
gave rise to ESI’s fiduciary status. See PI. Mem. at 24 n.ll.

55a
Plaintiffs are correct that a party’s ability to set
one’s own compensation under an agreement with an
ERISA-covered plan may make the party an ERISA fi­
duciary. F.H. Krear & Co. u. Nineteen Named Trustees,
810 F.2d 1250,1259 (2d Cir. 1987). But a party is enti­
tled to retain payments “in excess of costs” if “the con­
tract expressly authorizes the withholding” or “simply
does not require [a party] to pass along all of the sav­
ings.” United Teamster Fund v. MagnaCare Adminis­
trative Servs., LLC, 39 F. Supp.3d 461, 470 (S.D.N.Y.
2014) (quoting Chi. Dist. Council of Carpenters Welfare
Fund v. Caremark, Inc., 474 F.3d 463, 474 (7th Cir.
2007)).
Here, both parties agree that to the extent that
Plaintiffs’ prescription drug prices are related to ESI’s
compensation, it is because PBMs earn profits based
on the spread between the drug prices it bills to insur­
ance companies and insureds pursuant to PBM con­
tracts and the amount it pays out to retail pharmacies
or, in the context of a mail-order pharmacy, its own
costs. See ESI Mem. at 22 n.29; PI. Mem. at 29; see
also In re Express Scripts, Inc. PBM Litig., 2008 WL
2952787, at *5-6; Bickley v. Caremark Rx, Inc., 361
F. Supp. 2d at 1333. A PBM’s relationship with retail
pharmacies is distinct from its relationship with insur­
ance providers and subscribers and is not fiduciary in
nature. See Moeckel, 622 F. Supp. 2d at 677 (M.D. Tenn.
2007) (“Caremark’s contracting with retail pharmacies
in its proprietary network ... is part of Caremark’s ad­
ministration of its own business as a PBM. As such, it
is not fiduciary in nature.”); Mulder, 432 F. Supp. 2d at

56a
458 (“[T]he fact that PCS operated independently in
negotiating contracts with drug manufacturers does
not make PCS an ERISA fiduciary.”). Thus, the fact
that ESI earns its compensation by charging an insur­
ance provider more than it paid to the retail pharmacy
for a given drug (or that exceeded its own pharmacy’s
costs) does not transform it into a fiduciary with re­
spect to Plaintiffs.
3. Discretion over Pricing Based on
Additional Terms of the PBM Agree­
ment
Finally, Plaintiffs argue that ESI had “far-reaching
discretion” over the prices paid by Plaintiffs, and as
such were ERISA fiduciaries, because additional terms
of the PBM Agreement imbued them with the ability
to exercise discretion over the administration of the
plans. PI. Mem. at 30. Plaintiffs point to EST’s discre­
tion over (1) how rebates and fees are passed to An­
them subscribers, if at all; (2) the classification of drugs
as “generic” or “brand;” (3) the determination of which
drugs are placed on the Maximum Allowable Cost
(MAC) list; and (4) drug-switching. Id. at 31-33; SAC
‘M 116-18, 206(d), (f)-(h).39 Plaintiffs allege that the
39

With respect to drug switching, Plaintiffs, in their oppo­
sition, point to a general statement in the SAC that “PBMs have
fiduciary duties of loyalty and prudence when exercising discre­
tion over a plan’s formulary, including when determining when
or under what circumstances an individual should add, remove,
or switch prescription medications. .. Id. K 216. Plaintiffs also
point to the PBM Agreement itself, which states that Anthem
will consult with ESI “concerning [ESIj’s implementation and

57a
decisions ESI makes in managing these functions have
a “direct impact” on the prices Plaintiffs pay for pre­
scription drugs, PI. Mem. at 32, and that ESI therefore
has wide-ranging discretionary authority over Plan
administration, id. at 33-34.
Although Plaintiffs have made these allegations
with respect to ESI, Plaintiffs offer no allegations of
misconduct with respect to the allocation of rebates,
the classification of drugs, or drug-switching. See SAC
ff 316-18, 323-25, 361, 367 (referring only to ERISA
violations related to overcharges and inflated pricing
in the first, second, seventh, and eighth causes of ac­
tion). Because the guiding question is whether ESI was
acting as a fiduciary “when taking the action subject to
complaint,” whether or not ESI exercised discretion
with respect to other aspects of Plan administration is
immaterial. Cf. Pegram v. Herdrich, 530 U.S. 211, 226
(2000).
Finding that Plaintiffs have not alleged sufficient
facts to support a finding that ESI acted as a fiduciary
in its relevant conduct, the Court grants ESI’s motion

administration of [Anthem]-developed switching programs.” PBM
Agreement K 3.9(f). Section 3.9 also states that ESI will “review
all such [Anthem]-developed programs to ensure compliance with
PBM’s policies and applicable law.” Id. The only mention of drug
switching in connection with ESI is a general allegation that ESI
“exercised discretionary authority ... by choosing whether to fill
a prescription from a participant, reject the prescription, or shift
the participant to a different prescription medication.” SAC
f 206(d).

58a
to dismiss Claims 1, 2, 7,40 and 841 of the SAC. Fur­
thermore, because Plaintiffs’ claim against Anthem
for liability as a non-fiduciary party to a prohibited
transaction requires ESI to be an ERISA fiduciary, the
Court also dismisses Claim 6 of the SAC.42
B. Anthem’s Status as ERISA Fiduciary
Like ESI, Anthem argues that it was not a fiduci­
ary with respect to the challenged conduct, and there­
fore seeks dismissal of Claims 3, 4, and 9 (brought
under Sections 404(a), 406(a)-(b), and 409). Anthem
Mem. at 20. The third and fourth claims are brought
by both the Subscriber ERISA Sub-Class and the Plan
40 ESI also argues that Claim 7 (co-fiduciary liability) should
be dismissed because Plaintiffs do not plausibly allege either a
breach of fiduciary duty by Anthem or ESI’s knowledge of An­
them’s breach. ESI Mem. at 28-29. Because ESI was not acting in
a fiduciary capacity when it took the actions in question, the
Court need not reach the issue of whether Plaintiffs have suffi­
ciently alleged that ESI knew or enabled Anthem’s conduct. The
Court discusses Anthem’s fiduciary status in Part III.B infra.
41 ESI also seeks to dismiss the first, second, fifth, and sev­
enth causes of action as asserted by the Plan Plaintiffs because it
argues that those claims should have been brought under ERISA
§ 502(a)(2) instead of § 502(a)(3). ESI Mem. at 22 n.30. The Court
does not reach this issue as it finds these causes of action fail for
the “threshold” reason that ESI was not acting in a fiduciary ca­
pacity.
42 Anthem argues that Claim 6 should be dismissed for the
additional reason that Plaintiffs have not alleged a prohibited
transaction under either § 406(a) or § 406(b) because neither the
plans nor their plan assets were involved in the relevant transac­
tions. Anthem Mem. at 30-33. The Court does not decide this is­
sue.

59a
Class and allege that Anthem breached its fiduciary
duty by entering into the PBM Agreement, accepting
money for the sale of the NextRx entities into Anthem’s
personal account while agreeing to higher prescription
drug payments for its subscribers, failing to monitor
ESI’s performance under the PBM Agreement, and
causing the plans to engage in prohibited transactions.
SAC M 331—33, 338-41. The ninth claim is brought
only by the Plan Class and seeks relief under Section
502(a)(2). Id. 377.
Plaintiffs argue that Anthem is a fiduciary be­
cause Anthem exercised discretion in choosing ESI to
provide prescription drug prices and in negotiating the
PBM Agreement itself.43 PI. Mem. at 34-41. In the
SAC, Plaintiffs contend that Anthem had discretion
over the management of Plaintiffs’ prescription medi­
cation benefits. SAC f 207. Therefore, they argue, An­
them had the discretion to use any number of means—
purchasing drugs directly, using an in-house PBM, or
contracting with a separate PBM—to provide prescrip­
tion drugs and set prices for those prescriptions. An­
them’s choice of ESI—and its alleged delegation of
pricing and plan management to ESI—was an exercise
of that discretion and gave rise to Anthem’s fiduciary
duty. PI. Mem. at 36. According to Plaintiffs, by negoti­
ating with ESI to determine prescription medicine
43 Plaintiffs also argue that Anthem is a fiduciary because it
failed to monitor ESI, which breached its fiduciary duty. PI. Mem.
at 41-43. This begs the question. If Anthem were not a fiduciary
to its subscribers, it did not have a duty to monitor ESI’s perfor­
mance, and therefore could not have breached that duty.

60a
pricing and PBM services for its clients, Anthem fur­
ther exercised its discretion over the plan. Id. at 35.
Anthem, in contrast, argues that its negotiations
with ESI over the sale of NextRx and ESI’s provision
of PBM services involved purely business decisions
that did not give rise to fiduciary status. Anthem Mem.
at 23.
Insurers can, of course, be fiduciaries with respect
to ERISA health plans. Am. Psychiatric Assoc, v. An­
them Health Plans, Inc., 50 F. Supp.3d 157,169 (D.
Conn. 2014), aff’d on other grounds 821 F.3d 352 (2d
Cir. 2016). However, it is well-established that deci­
sions about plan content, rather than plan administra­
tion, do not give rise to fiduciary duties. See Pegram,
530 U.S. at 225-26. While an insurer “engages in a fi­
duciary act when making a discretionary determina­
tion about whether a claimant is entitled to benefits
under the terms of plan documents,” fiduciary duties
are not triggered “when the decision is, at its core, a
corporate business decision.” Am. Pyschiatric Ass’n v.
Anthem Health Plans, Inc., 821 F.3d 352, 362 n.2 (2d
Cir. 2016) (internal citations and quotations omitted).
Thus, an insurer’s substantive decisions about setting
reimbursement rates do not ordinarily trigger fiduci­
ary duties. Am. Psychiatric Ass’n, 50 F. Supp. 3d at 169
(citing Curtiss-Wright Corp. v. Schoonegon, 514 U.S. 73,
78 (1995)). Similarly, the decision to sell corporate as­
sets or divisions is one made in an insurer or em­
ployer’s business capacity, not its fiduciary capacity,
even if a plan is affected by the decision. See Flani­
gan v. General Elec. Co., 242 F.3d 78, 88 (2d Cir. 2001)

61a
(“Because GE’s decision to spin-off the division along
with its pension plan was, at its core, a corporate busi­
ness decision, and not one of a plan administrator,
GE was acting as a settlor, not a fiduciary, when it
transferred the surplus to Lockheed. Therefore, GE’s
general fiduciary duties under ERISA were not trig­
gered.”).
Here, Anthem’s decisions to sell its PBM business
and to contract the provision of PBM services out to
ESI did not trigger fiduciary duties. Plaintiffs have
challenged Anthem’s role in setting prices they believe
are unfair, not Anthem’s “use of discretion in constru­
ing and applying the provisions of their group health
plans and assessing a participant’s entitlement to ben­
efits.” Am. Psychiatric Ass’n, 50 F. Supp. 3d at 169-70
(internal citations and quotations omitted). Plaintiffs
do not argue that Anthem’s actions misconstrued or in­
terpreted their health plans in a way that benefitted
Anthem to the detriment of Plaintiffs. Rather, Plain­
tiffs argue that they overpaid for prescription drugs,
which they attribute, in essence, to the PBM Agree­
ment itself, instead of Anthem’s interpretation or ap­
plication of their particular Anthem health plans. And
while Plaintiffs point to Section 5.6 and its mention
of “competitive benchmark” prices, Plaintiffs have no
right under ERISA to receive “competitive bench­
mark pricing,” or even average pricing, for prescrip­
tion drugs. See Curtiss-Wright Corp., 514 U.S. 73 at 78
(“ERISA does not create any substantive entitlement
to employer-provided health benefits or any other kind
of welfare benefits. Employers or other plan sponsors

62a
are generally free under ERISA, for any reason at any
time, to adopt, modify, or terminate welfare plans.”).
The cases on which Plaintiffs rely are not to the
contrary. Plaintiffs cite to Sixty-Five Security Plan v.
Blue Cross & Blue Shield of Greater New York in sup­
port of their position that an insurer is a fiduciary
when it negotiates rates for a plan. But the court noted
in that case that Blue Cross’s position as an insurer
was “quite dissimilar” from the usual insurance ar­
rangement, because Blue Cross “never advanced any
of its own money, but simply paid out of [the Plan’s]
monies, and earned a fee for doing so.” 583 F. Supp.
380,385 (S.D.N.Y. 1984). Further, the court noted the
importance of the insurer’s “ability to determine which
of the many claims submitted to it should be paid.” Id.u
Subsequently, courts in this District confirmed that
where an insurer is acting in its normal capacity—as
a “mere insurer”—no fiduciary status is triggered. Gar­
ner v. MGS—576 5th Ave. Inc., 992 F. Supp. 340, 35758 (S.D.N.Y. 1998). Similarly, in Donovan v. Bierwirth,
the Second Circuit found that trustees of a corporate
pension plan, who were also on the Board of Directors
of the corporation, were acting as fiduciaries when they
used plan assets to purchase corporate stock in an at­
tempt to thwart a hostile takeover. 680 F.2d 263, 27274 (2d Cir. 1982). Here, however, Plaintiffs do not allege
44 Further, on reargument, the court certified the case for in­
terlocutory appeal, noting that “there can be no doubt that ‘there
is substantial ground for difference of opinion’ on substantially
every point that has been presented for determination.” 588
F. Supp. 119, 121 (S.D.N.Y. 1984).

63a
that Anthem’s fiduciary status arises from control over
any plan assets. See SAC f 207 (laying out the bases
under which Anthem was allegedly a fiduciary to
Plaintiffs).
Plaintiffs also point to cases in which an insurer’s
interpretation and implementation of insurance con­
tracts gave rise to fiduciary duties. See Devlin v. Em­
pire Blue Cross & Blue Shield, 21A F. 3d 76, 87-88 (2d
Cir. 2001) (an insurer’s reduction in life insurance ben­
efits may have violated insurance plan documents and
therefore may have involved the exercise of discretion
giving rise to a breach of fiduciary duty); Everson v.
Blue Cross & Blue Shield, 898 F. Supp. 532, 538-39
(N.D. Ohio 1994) (finding that certain plaintiffs stated
a claim for breach of fiduciary duty when it alleged
that insurer did not share in the discounts it received
from health care providers in violation of subscriber
certificates); Reis v. Humana Health Plan, Inc., No. 94
Civ. 6180 (HDL), 1995 WL 669583, at *7 (N.D. Ill. Nov.
8, 1995) (finding that where insurer had admitted it
was a plan fiduciary, the plaintiff stated a claim for
breach of fiduciary duty by alleging that insurer did
not share in the discounts it received from health care
providers in violation of the plan’s subscriber’s service
agreement).45 In each of these cases, the allegations
45 But see Alves v. Harvard Pilgrim Health Care Inc., 204
. F. Supp. 2d 198, 210 (D. Mass. 2002) (rejecting the plaintiffs’ ar­
gument that “although . . . the creation of the business terms of
an ERISA plan is not a fiduciary act.. . the defendants’ failure to
implement the plan in a way that gives plan members the benefit
of negotiated discounts on the cost of prescription drugs consti­
tutes a breach of fiduciary duty”).

64a
involved an insurer’s misrepresentation of benefits
provided to beneficiaries under the health insurance
plans. But here, Plaintiffs do not allege that Anthem
was required to provide them with certain pricing lev­
els for prescription drugs and then violated those re­
quirements. Nor do Plaintiffs allege that Anthem
promised them “competitive benchmark pricing” and
either failed to meet this requirement or failed to dis­
close that it could negotiate for, but could not guaran­
tee, competitive benchmark pricing throughout the
pendency of the PBM Agreement. Plaintiffs’ claims
therefore are distinguishable from the claims that sur­
vived in Devlin, Everson, and Reis.
Plaintiffs, however, argue that this difference
helps their claims, because “there is not one provision
that specifies the prices the plans or its participants
will pay for prescription medications,” arguably show­
ing the extent of Anthem’s discretion over pricing. PI.
Mem. at 41. But in a similar context, the Sixth Circuit
found that fiduciary duties were not triggered by an
insurer’s pricing decisions. In DeLuca v. Blue Cross
Blue Shield of Michigan, BCBS provided three forms
of health care coverage: an open-access plan, a pre­
ferred provider plan (PPO), and a health maintenance
organization (HMO). 628 F.3d 743, 745 (6th Cir. 2010).
For each of the plans, BCBS negotiated and set sepa­
rate rates for each of the coverage options. In 2004,
BCBS re-negotiated rates in order to make its HMO
more competitive, decreasing HMO rates while in­
creasing PPO and open-access plan rates to make the
move budget-neutral for service providers. Id. at 746.

65a
The Sixth Circuit held BCBS “was not acting as a fidu­
ciary when it negotiated the challenged rate changes,
principally because those business dealings were not
directly associated with the benefits plan at issue . . .
but were generally applicable to a broad range of
health-care consumers.” Id. at 747.
The Court is persuaded by the Sixth Circuit’s rea­
soning, as well as the reasoning of courts in this Circuit
who have determined that a health benefits company
setting prices in its role as a health insurer is not act­
ing as an ERISA fiduciary. See Am. Psychiatric Ass’n,
50 F. Supp.3d at 169-70. For those reasons, the Court
GRANTS Anthem’s motion to dismiss Claims 3, 4,46
and 9 of the SAC. Furthermore, because Plaintiffs’
claim against ESI for liability as a non-fiduciary party
to a prohibited transaction requires Anthem to be an
ERISA fiduciary, the Court also dismisses Claim 5 of
the SAC.47

46 Anthem also seeks the dismissal of Claim 4 for the same
reasons as discussed in note 42 supra.
47 ESI also argues that Claim 5 of the SAC should be dis­
missed because Plaintiffs are actually seeking compensatory
damages, rather than equitable relief as required under ERISA
§ 502(a)(3). ESI Mem. at 29-32. Anthem joins in that argument
with respect to Claims 3, 4, 6, and 7 of the SAC. Anthem Mem. at
36-40. The Court does not decide this issue, having found that
neither Anthem nor ESI were acting in their fiduciary capacities
with respect to the conduct at issue.

66a
VI.

RICO

ESI also moves to dismiss Claim 10 of the SAC,
which alleges that ESI violated RICO through its con­
trol of the “Anthem Enterprise,” as it related to the pro­
vision of prescription drug benefits, and its pattern of
committing mail and wire fraud by misrepresenting to
Anthem and Plaintiffs the price of prescription medi­
cations. SAC I'll 385-87, 390-93. ESI argues that
Plaintiffs’ RICO claim fails because (1) Plaintiffs failed
to show that ESI had control over an “enterprise,” and
(2) Plaintiffs failed to plead predicate acts of mail and
wire fraud. ESI Mem. at 34-36.
A. ESI’s Control Over Anthem
ESI argues that Plaintiffs failed to plead that ESI
had control over an “enterprise” as required under
RICO, because Plaintiffs cannot allege that they had
some part in directing the “Anthem” enterprise, as
they did not participate in the operation or manage­
ment of the Anthem enterprise. ESI Mem. at 35-36.
The “operation or management” test does not require
primary responsibility for an enterprise’s operations,
only “some part in directing the enterprise’s affairs.”
City of New York u. LaserShip, Inc., 33 F. Supp. 3d 303,
309-10 (S.D.N.Y. 2014) (quoting Reyes v. Ernst &
Young, 507 U.S. 170, 179 (1993)). The test is a “rela­
tively low hurdle for plaintiffs to clear, especially at the
pleading stage.” Id. (quoting First Capital Asset Mgmt.
v. Satinwood, Inc., 385 F.3d 159 175-76 (2d Cir. 2004)).

67a

■>

Here, Plaintiffs have alleged that ESI was respon­
sible for the administration of prescription medication
benefits for Anthem participants. See SAC M 274-77.
ESI makes two primary arguments as to why such
pleading is insufficient. First, ESI argues that Plain­
tiffs did not allege that ESI “actually directs, operates,
or manages Anthem.” ESI Mem. at 35. However, such
pleading is not required under RICO. The “operation or
management” test does not require participation in all
of the enterprise’s affairs; only those affairs which re­
late to the alleged RICO violation. See City ofNew York
v. FedEx, 175 F. Supp. 3d 351,372 (S.D.N.Y. 2016) (find­
ing that Plaintiffs stated a claim under the enterprise
prong of RICO by “describing the control and discre­
tion” the defendant had over the relevant “portion of
the enterprise’s affairs”). Second, ESI argues that else­
where in the SAC, Plaintiffs allege that Anthem had
authority over ESI to “protect plans and plan partici­
pants from” ESI’s alleged inflated pricing. ESI Mem. at
36. According to ESI, that allegation is “contradictory”
to Plaintiff’s RICO claim. Id. But because RICO does
not require that a defendant bear “primary responsi­
bility” over an enterprise’s operations, these two alle­
gations are not necessarily inconsistent. By alleging
that ESI participated in and controlled Anthem’s pre­
scription drug benefit program under the PBM Agree­
ment, Plaintiffs have adequately plead this RICO
element.

68a
B. Predicate Acts of Wire and Mail Fraud
To plead wire or mail fraud, a plaintiff must allege
“(1) a scheme to defraud, (2) money or property as the
object of the scheme, and (3) use of the mails or wires
to further the scheme.” United States v. Binday, 804
F.3d 558, 569 (2d Cir. 2015) (internal quotations omit­
ted). ESI argues that Plaintiffs have failed to ade­
quately plead that ESI had “a scheme to defraud,”
because the SAC makes “only conclusory allegations”
about ESI’s knowledge and intent to conceal material
facts. ESI Mem. at 34.
Plaintiffs allege that ESI’s “scheme to defraud”
was primarily its practice of mailing or electronically
posting prescription drug medication bills in “amounts
greater than Express Scripts represented to Anthem it
would charge and more than [Subscriber Plaintiffs]
owed for their prescription medications.” SAC % 289.
As discussed above, Plaintiffs have no ex ante right to
a certain level of prescription drug pricing. See CurtissWright Corp., 514 U.S. at 78 (“ERISA does not create
any substantive entitlement to employer-provided
health benefits or any other kind of welfare benefits.
Employers or other plan sponsors are generally free
under ERISA, for any reason at any time, to adopt,
modify, or terminate welfare plans.”). Although Plain­
tiffs have not attached any of their health plans or the
ASO agreements between their employers and An­
them, they concede that nothing in those contracts en­
titled them to a specific set or range of prescription
drug prices. See Pl.’s Mem. at 40-41. Thus, to defeat a
motion to dismiss, Plaintiffs must have adequately

69a
alleged that ESI fraudulently represented to Anthem
that it would charge Anthem participants “competitive
benchmark pricing” for prescription medications.
Under Federal Rule of Civil Procedure 9, a fraud
claim must be stated “with particularity.” Mills v. Polar
Molecular Corp., 12 F.3d 1170, 1775 (2d Cir. 1993).
Specifically, a complaint must “(1) specify the state­
ments that the plaintiff contends were fraudulent,
(2) identify the speaker, (3) state where and when the
statements were made, and (4) explain why the state­
ments were fraudulent.” Id. “Malice, intent, knowl­
edge, and other conditions of a person’s mind may be
alleged generally.” Fed. R. Civ. P. 9(b). However, a
complaint “must plead facts that give rise to a strong
inference that the defendant possessed fraudulent in­
tent.” Tymoshenko v. Firtash, 57 F. Supp. 3d 311, 321
(S.D.N.Y. 2014) (quoting Mills, 12 F.3d at 1176); see
also Turner v. New York Rosbruch/Harnik, Inc., 84
F. Supp. 3d 161,168 (E.D.N.Y. 2015).
In describing ESI’s alleged scheme to defraud,
Plaintiffs do not detail any misrepresentations, instead
alleging generally that “Express Scripts represented
that it would charge only competitive benchmark pric­
ing for prescription medications for plans adminis­
tered by Anthem and for Anthem subscribers and
beneficiaries.” SAC f 251. Plaintiffs claim that they
“set forth in detail” the nature of those representations
elsewhere in the complaint, but do not point to any par­
ticular allegations. Id. In their opposition, Plaintiffs
still do not elaborate. PI. Mem. at 63. Similarly, Plain­
tiffs allege that “at the time Express Scripts made

70a
these representations, Express Scripts knew these
representations were false.” SAC 252. But the SAC
does not say when these alleged misrepresentations
occurred, where they occurred, or who made the state­
ments. Later, the SAC references ESI’s “ongoing mis­
representations and concealments of the material fact
that Express Scripts was not providing competitive
benchmark pricing,” but again, Plaintiffs do not ex­
plain what the misrepresentations were, nor do they
explain when, where, and by whom they were made.
All of those details are required under Rule 9. Because
the predicate acts alleged in the SAC are all connected
to misrepresentations from ESI to Anthem, and be­
cause those misrepresentations were plead with insuf­
ficient particularity, the Court finds that Plaintiffs
have failed to plead predicate acts as required under
RICO and grants ESPs motion to dismiss Claim 10 of
the SAC.
VII. ACA NONDISCRIMINATION PROVISION
Does One and Two have been diagnosed with HIV.
In Claim 17 of the SAC, Does One and Two allege that
ESI violated the ACA’s anti-discrimination provision,
which provides that an individual shall not “be ex­
cluded from participation in, be denied the benefits of,
or be subjected to discrimination under [] any health
program or activity.” 42 U.S.C. § 18116. The ACA’s non­
discrimination provision specifically references Sec­
tion 504 of the Rehabilitation Act of 1973 (“Section
504”), which prohibits discrimination against an “oth­
erwise qualified individual with a disability.” 29 U.S.C.

/

71a
§ 794(a). Does One and Two allege that because of
ESI’s inflated prices, they overpaid for their HIVrelated prescription drug pricing. SAC f 455. This re­
sulted in “disparate economic harm,” according to
Plaintiffs, because prescription drugs related to chronic
conditions like HIV are often defined as “specialty
medications” subject to a higher percentage based coinsurance charge. Id. HI 455-56.
Comments from the Health and Human Services
Department’s 2016 Nondiscrimination in Health Pro­
grams and Activities rules emphasize that the nondis­
crimination provision “is not intended to apply lesser
standards for the protection of individuals from dis­
crimination than the standards under Title VI, Title
IX, Section 504, the Age [Discrimination] Act, or the
regulations issued pursuant to those laws.” 81 Fed.
Reg. 31381 (2016). Thus, this Court looks to Section
504 to determine the pleading requirements for a dis­
ability discrimination claim under the ACA.
To state a claim under Section 504, a plaintiff
must show that she: (1) is a “qualified individual with
a disability;” (2) was “excluded from participation . . .
or was otherwise discriminated against” by the defend­
ant; and (3) was excluded or discriminated against
“due to” her disability. B.C. v. Mount Vernon School
Dist., 837 F.3d 152,158 (2d Cir. 2016). ESI argues that
Plaintiffs have not stated a claim because Plaintiffs
have failed to show that they paid higher drug prices
“solely by reason of their disability. ESI Mem. at 43
(quoting 29 U.S.C. § 794(a)).

72a
Plaintiffs argue that they need not show that the
prices they paid for HIV medication was “solely by rea­
son of their disability, because Section 504 and the
ACA nondiscrimination provision, allows Plaintiffs to
bring disparate impact claims. PI. Mem. at 76-77.
Section 504 has not been universally understood
to encompass all disparate impact claims. In fact, the
Supreme Court has found “troubling” the proposition
that Section 504 would reach “all action[s] disparately
affecting the handicapped.” Alexander v. Choate, 469
U.S. 287, 298-99 (1985). In Alexander, the Court found
that the statute should be interpreted to combat dis­
crimination resulting from “apathetic attitudes” as
well as “affirmative animus,” but also noted that “the
handicapped typically are not similarly situated to the
nonhandicapped” and doubted that Congress “in­
tended Section 504 to embrace all claims of disparateimpact discrimination.” Id. at 297-98. Instead of creat­
ing a bright-line rule, the Court emphasized that the
purpose of Section 504 was to provide a disabled per­
son “meaningful access to the benefit that the grantee
offers.” Id. at 301. Alexander also advised lower courts
to “be responsive to two powerful but countervailing
considerations—the need to give effect to the statutory
objectives and the desire to keep Section 504 within
manageable bounds.” Id. at 299.
The Second Circuit seems to take a more inclusive
view of Section 504, and has stated that under either
the Americans with Disabilities Act or Section 504, a
plaintiff may base a discrimination claim on disparate
impact theory. See B.C., 837 F.3d at 158. Other courts,

73a
however, have followed more narrowly the Supreme
Court’s “meaningful access” guidance in Alexander v.
Choate. See Civic Ass’n of the Deaf of New York City,
Inc. v. City of New York, No. 95 Civ. 8591 (RWS), 2011
WL 5995182, at *9 (S.D.N.Y. Nov. 29,2011) (“In formu­
lating the meaningful access standard, the Supreme
Court explicitly rejected the position that all conduct
that had a disparate impact on disabled persons vio­
lated [Section 504]
.”). In Ruskai v. Pistole, the First
Circuit explained its understanding of the availability
of disparate impact claims under Section 504:
When the Supreme Court assumed that a dis­
parate impact theory could apply in an action
under Section 504 in some situations, the sit­
uation it identified was a case in which per­
sons with disabilities were denied meaningful
access to a government program or benefit.
That exclusionary situation may fairly be de­
scribed as the primary target of Section
504. ...
[Plaintiff] points to no case law adopting the
view that any government conduct that af­
fects a group that includes a disproportionate
number of persons with a disability (e.g., a
group of Medicare recipients, or hospital pa­
tients, or retirement resort residents, etc.)
must be free from any unpleasant effects,
such as dollar impact, waiting time, or lack
of quality, unless those effects are fundamen­
tal or necessary to the government’s pro­
gram. And it is precisely this type of effect—
neither connected to any denial of access nor
motivated by discriminatory intent—that

74a
Alexander treats as outside the scope of Sec­
tion 504’s target.
Ruskai, 775 F.3d 61, 78-79 (1st Cir. 2014) (internal ci­
tations omitted). Similarly, considering claims of in­
flated Hepatitis C drug pricing brought under the
ACA’s nondiscrimination provision and Section 504,
the Eastern District of Pennsylvania determined that
“while obviously only patients with a Hepatitis C diag­
nosis would try to acquire these drugs in the first place,
that type of obvious barrier is an example of the Su­
preme Court’s concern in Alexander v. Choate about
interpreting Section 504 so as to reach all claims of
disparate impact discrimination.” Southeastern Penn­
sylvania Transp. Authority v. Gilead Sci., Inc., 102
F. Supp. 3d 688, 700 (E.D. Pa. 2015).
Here, the Court need not decide whether Plaintiffs
may bring a disparate impact claim on the basis that
their prescription medications for their disabilities are
costly, because even assuming that standard applies,
the Subscriber ACA Sub-Class has not plead facts suf­
ficient to sustain a claim against ESI. To state a dis­
parate impact claim, a plaintiff must allege “(1) the
occurrence of certain outwardly neutral practices, and
(2) a significantly adverse or disproportionate impact
on persons of a particular type produced by the defend­
ant’s facially neutral acts or practices.” B.C., 837 F.3d
at 158 (quoting Tsombanidis v. W. Haven Fire Dep’t,
352 F.3d 565, 574-75 (2d Cir. 2003)). Plaintiffs argue
that ESI’s inflated pricing disproportionately impacts
individuals with chronic conditions because drugs
treating those conditions are likely to be subject to a

75a
higher co-insurance rate. SAC f 456. However, with re­
spect to John Doe One, the SAC does not state what
co-insurance rate he paid for his HIV medication
Atripla. Critically, the SAC also does not allege that
Doe One’s co-insurance rate was higher for Atripla
than it was for other prescription drugs he may have
needed for non-HIV related conditions. With respect to
John Doe Two, the SAC clarifies that he paid a 20%
coinsurance charge for his prescriptions of Truvada,
Intelence, and Isentress. Id. 46. However, the SAC
does not allege that John Doe Two’s co-insurance rate
for non-HIV related drugs was lower than 20%. Plain­
tiffs’ allegations that pricing increases disproportion­
ately affect Anthem subscribers with HIV because of
the high co-insurance rate for HIV drugs are further
rebutted by the fact that subscribers who did not suffer
from HIV had higher co-insurance rates than John Doe
Two. See id. *][ 64 (Farrell’s co-insurance rate was be­
tween 30% and 100%); SI 73 (Shullich’s co-insurance
rate was between 25% and 50%).48 Thus, Plaintiffs’ al­
legations do not “state a claim for relief that is plau­
sible on its face.” See Iqbal, 556 U.S. at 678 (2009)

48

Plaintiffs do argue that the cost the Subscriber ACA Plain­
tiffs pay for their medications is higher than the cost paid by in­
dividuals who are not part of the Subscriber ACA Sub-Class. SAC
M 459-60 (comparing the costs Does One and Two pay for pre­
scription drugs annually to costs paid by other Plaintiffs and the
“average insured American”). But Plaintiffs’ allegations of dispar-,
ate impact are tied to the allegedly higher co-insurance rate for
specialty medications. See SAC M 455-56; PI. Mem. at 78. There­
fore, the Court does not find Plaintiffs’ comparisons relevant to
their theory of drug pricing discrimination under the ACA.

76a
(quoting Twombly, 550 U.S. at 555). Therefore, ESI’s
motion to dismiss Claim 17 of the SAC is granted.
VIII. STATE LAW CLAIMS
Plaintiffs assert that this Court has jurisdiction
over its state law claims due to the Class Action Fair­
ness Act (“CAFA”), 28 U.S.C. § 1332(d). SAC H 31.
CAFA provides for original jurisdiction over civil class
action suits where there is at least some diversity of
citizenship between Plaintiffs and Defendants and
where the matter in controversy exceeds $5 million. Id.
A party seeking federal jurisdiction must show a “rea­
sonable probability” that the aggregate amount-in­
controversy exceeds $5 million. Blockbuster, Inc. v.
Galeno, 472 F.3d 53, 58 (2d Cir. 2006).
Plaintiffs do not attempt to quantify their dam­
ages, nor do they assert that the damages they seek
will be above $5,000,000. Furthermore, the remaining
state law claims are brought only on behalf of the NonERISA Subscriber Sub-Class. Plaintiffs estimate that
the Subscriber Class as a whole may have been “over­
charged in excess of $1 billion.” SAC % 149. However,
Plaintiffs also allege that the majority of Anthem’s
business is comprised of ASO plans, which are often
funded by employers. See id. 1 3 (explaining ASO
agreements); f 10 (explaining that ASO plans account
for over 60% of Anthem’s business). Those plans are
likely to fall within the ambit of ERISA, and therefore
subscribers in ASO plans are unlikely to be members
of the Non-ERISA Subscriber Sub-Class. In the Second

77a
Circuit, “the party asserting federal jurisdiction bears
the burden of establishing jurisdiction.” Blockbuster,
472 F.3d at 57. In this case, the burden is on Plain­
tiffs, and because they not have shown a “reasonable
probability” that the aggregate claims of the NonERISA Subscriber Class are in excess of $5 million, the
Court finds that, having dismissed the Plaintiffs’ fed­
eral claims, it cannot exercise original jurisdiction over
Plaintiffs’ state law claims.
Plaintiffs also allege that this Court also has sup­
plemental jurisdiction over its state law claims. Fed­
eral courts may exercise supplemental jurisdiction
over state law claims “that are so related to claims in
the action within such original jurisdiction that they
form part of the same case or controversy under Article
III of the United States Constitution.” SAC f 31; 28
U.S.C. § 1367(a). Subsection (c) of § 1367 enumerates
circumstances in which a district court “may decline
to exercise supplemental jurisdiction over a claim
under subsection (a).” 28 U.S.C. § 1367(c)(3). One
such circumstance is where, as here, “the district court
has dismissed all claims over which it has original ju­
risdiction.” Id. at § 1367(c)(3).
Once a district court’s discretion is triggered un­
der § 1367(c)(3), it balances the traditional “values of
judicial economy, convenience, fairness, and comity” in
deciding whether to exercise jurisdiction. Kolari v. New
York-Presbyterian Hospital, 455 F.3d 118, 122 (2d Cir.
2006) (quoting Carnegie-Mellon Univ. v. Cohill, 484
U.S. 343, 350 (1988)). The Supreme Court has noted
that in a case where all federal claims are eliminated

78a
before trial, “the balance of factors . .. will point to­
ward declining to exercise jurisdiction over the re­
maining state-law claims.” Id. (quoting Cohill, 484 U.S.
at 350 n.7). Accordingly, as Plaintiffs’ federal claims
have all been dismissed, the Court declines to exercise
jurisdiction over the remaining state law claims.
IX.

AMENDMENT

Plaintiffs request leave to amend the SAC in the
event that the Court dismisses its claims against ESI
and Anthem. PI. Mem. at 79-80. ESI opposes this re­
quest on the basis that amendment would be futile, as
the SAC is the fourth iteration of Plaintiffs’ claims. ESI
Mem. at 45. Anthem presumably also opposes this re­
quest; although it presents no argument as to why
amendment should be denied, it seeks dismissal “with
prejudice” of all of Plaintiffs’ claims. Anthem Mem. at
44.
A court may deny leave to amend a complaint for
“good reason, including futility, bad faith, undue delay,
or undue prejudice to the opposing party.” Holmes v.
Grubman, 568 F.3d 329, 334 (2d Cir. 2009) (quoting
McCarthy v. Dun & Bradstreet Corp., 482 F.3d 184,200
(2d Cir. 2007)). A court may deny a motion to amend on
the basis of futility “only where no colorable grounds
exist to support the proposed claim.” Allison v. Clos-ette
Too, L.L.C., No. 14 Civ. 1618 (LAK) (JCF), 2015 WL
136102, at *2 (S.D.N.Y. Jan. 9, 2015). In Loreley Fi­
nancing (Jersey) No. 3 Ltd. v. Wells Fargo Sec., LLC, the
Second Circuit reaffirmed that the “liberal spirit” of

79a
Federal Rule of Civil Procedure 15 embodies a “strong
preference for resolving disputes on the merits.” 797
F.3d 160, 190-91 (2d Cir. 2015) (quoting Williams v.
Citigroup Inc., 659 F.3d 208, 212-13 (2d Cir. 2011)).
This is especially true, the Second Circuit explained,
for a case involving “a complex commercial reality with
a long, multi-prong complaint” that has not had “the
benefit of a ruling” that highlights “the precise defects”
of the complaint. Id.
Here, while Plaintiffs have already had opportuni­
ties to amend the original complaint, none were in the
context of a motion to dismiss decision and the Court
has therefore not yet provided guidance as to how
Plaintiffs’ claims may be adequately made. Further,
the unredacted PBM Agreement was only made avail­
able to Plaintiffs after it filed the SAC. See PI. Mem. at
17. Therefore, because there is a possibility that the
unredacted PBM Agreement provides Plaintiffs with
newly available information that enables them to
raise colorable claims based on the Court’s guidance
in this opinion, the SAC will be dismissed without prej­
udice.
X.

CONCLUSION

Defendants’ motions to dismiss are GRANTED
without prejudice. The parties’ requests for oral argu­
ment on the motions are DENIED AS MOOT. The
Clerk of Court is respectfully directed to terminate the
motions (Docs. 93, 96, 97, 100 and 112). The Plaintiffs

80a
shall file their Third Amended Complaint by January
26, 2018.
It is SO ORDERED.
Dated: January 5, 2018
New York, New York
/s/ Edgardo Ramos
Edgardo Ramos, U.S.D.J.

81a
APPENDIX C

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT ,
At a stated term of the United States Court of Ap­
peals for the Second Circuit, held at the Thurgood Mar­
shall United States Courthouse, 40 Foley Square, in
the City of New York, on the 26th day of January, two
thousand twenty-one.
ORDER
John Doe 1, On behalf of
themselves and all others similarly Docket No: 18-346
situated, John Doe 2, On behalf of
themselves and all others similarly
situated, Brian Corrigan, Stamford
Health, Inc., Brothers Trading
Co., Inc.,
Plaintiffs - Appellants,
Karen Burnett, individually and
on behalf of all others similarly
situated, Brendan Farrell,
individually and on behalf of all
others similarly situated, Robert
Shullich, individually and on behalf
of all others similarly situated,
Consolidated Plaintiffs Appellants,
v.
Express Scripts, Inc., Anthem, Inc.,
Defendants - Appellees.

82a
Appellants filed a petition for panel rehearing, or,
in the alternative, for rehearing en banc. The panel
that determined the appeal has considered the request
for panel rehearing, and the active members of the
Court have considered the request for rehearing en
banc.
IT IS HEREBY ORDERED that the petition is de­
nied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

83a
APPENDIX D
STATUTORY PROVISIONS INVOLVED
29 U.S.C. § 1001. Congressional findings and
declaration of policy
(b) Protection of interstate commerce and beneficiar­
ies by requiring disclosure and reporting, setting
standards of conduct, etc., for fiduciaries
It is hereby declared to be the policy of this chapter to
protect interstate commerce and the interests of par­
ticipants in employee benefit plans and their benefi­
ciaries, by requiring the disclosure and reporting to
participants and beneficiaries of financial and other in­
formation with respect thereto, by establishing stand­
ards of conduct, responsibility, and obligation for
fiduciaries of employee benefit plans, and by providing
for appropriate remedies, sanctions, and ready access
to the Federal courts.
29 U.S.C. § 1002. Definitions
For purposes of this subchapter:
*

(21)(A) Except as otherwise provided in subpara­
graph (B), a person is a fiduciary with respect to a
plan to the extent (i) he exercises any discretionary

84a
authority or discretionary control respecting manage­
ment of such plan or exercises any authority or control
respecting management or disposition of its assets, (ii)
he renders investment advice for a fee or other com­
pensation, direct or indirect, with respect to any mon­
eys or other property of such plan, or has any authority
or responsibility to do so, or (iii) he has any discretion­
ary authority or discretionary responsibility in the ad­
ministration of such plan. Such term includes any
person designated under section 1105(c)(1)(B) of this
title.
29 U.S. Code § 1104. Fiduciary duties
(a) Prudent man standard of care
(1) Subject to sections 1103(c) and (d), 1342, and 1344
of this title, a fiduciary shall discharge his duties with
respect to a plan solely in the interest of the partici­
pants and beneficiaries and—
(A) for the exclusive purpose of:
(i) providing benefits to participants and
their beneficiaries; and
(ii) defraying reasonable expenses of admin­
istering the plan;
,
(B) with the care, skill, prudence, and diligence
under the circumstances then prevailing that a
prudent man acting in a like capacity and familiar
with such matters would use in the conduct of an
enterprise of a like character and with like aims;

85a
(C) by diversifying the investments of the plan so
as to minimize the risk of large losses, unless un­
der the circumstances it is clearly prudent not to
do so; and
(D) in accordance with the documents and in­
struments governing the plan insofar as such doc­
uments and instruments are consistent with the
provisions of this subchapter and subchapter III.

